No. 19-___

In the Supreme Court of the United States
__________
STATE OF NORTH CAROLINA,
Petitioner,
v.
JAMES HAROLD COURTNEY, III,
Respondent.
__________
ON PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT
OF NORTH CAROLINA

__________
APPENDIX TO
PETITION FOR WRIT OF CERTIORARI
__________
JOSHUA H. STEIN
Attorney General of North Carolina
Matthew W. Sawchak
Solicitor General
Counsel of Record
Ryan Y. Park
Deputy Solicitor General
Caryn Devins Strickland
Solicitor General Fellow
North Carolina Department of Justice
Post Office Box 629
Raleigh, NC 27602
(919) 716-6400
msawchak@ncdoj.gov

APPENDIX TO PETITION FOR
WRIT OF CERTIORARI
TABLE OF CONTENTS
1.

Opinion of the North Carolina Supreme
Cour t, issued August 16, 2019..................... 1a

2.

Opinion of the North Carolina Court of
Appeals, issued May 15, 2018 ..................... 59a

3.

Trial court transcript dated October 10,
2016 .................................................... 84a

1a
IN THE SUPREME COURT OF NORTH CAROLINA
No. 160PA18
Filed August 16, 2019
STATE OF NORTH CAROLINA
v.
JAMES HAROLD COURTNEY, III
On discretionary review pursuant to N.C.G.S. §
7A-31 of a unanimous decision of the Court of
Appeals, 817 S.E.2d 412 (2018), vacating a judgment
entered on 9 November 2016 by Judge Donald W.
Stephens in Superior Court, Wake County. Heard in
the Supreme Court on 15 May 2019 in session in the
New Bern City Hall in the City of New Bern pursuant
to section 18B.8 of Chapter 57 of the 2017 Session
Laws of the State of North Carolina.
Joshua H. Stein, Attorney General, by Jess D. Mekeel,
Special Deputy Attorney General, and Benjamin O.
Zellinger, Assistant Attorney General, for the Stateappellant.
Glenn Gerding, Appellate Defender, by Amanda S.
Zimmer, Assistant Appellate Defender, for defendantappellee.
Tin Fulton Walker & Owen, PLLC, Charlotte, by
Matthew G. Pruden; and Devereux & Banzhoff, PLLC,
Asheville, by Andrew B. Banzhoff, for North Carolina
Advocates for Justice, amicus curiae.

2a
HUDSON, Justice
This case comes to us by way of the State’s appeal
from a unanimous decision of the Court of Appeals
holding that defendant’s right to be free from double
jeopardy was violated when the State voluntarily
dismissed defendant’s charge after his first trial
ended in a hung jury mistrial. Defendant was retried
nearly six years later, after new evidence emerged.
The State argues that jeopardy is deemed never to
have attached because of the mistrial, so that
defendant was not in jeopardy at the time that his
second trial began. In the alternative, the State
argues that, even if defendant remained in jeopardy
following the mistrial, the State’s voluntary dismissal
without leave did not terminate that jeopardy and
that the State was not barred from trying the
defendant a second time. We are not persuaded by
either of the State’s arguments and, thus, affirm the
Court of Appeals.
Today we recognize, in accordance with double
jeopardy principles set out by this Court and the
United States Supreme Court, that jeopardy attaches
when the jury is empaneled and continues following a
mistrial until a terminating event occurs. We hold
that when the State enters a voluntary dismissal
under N.C.G.S. § 15A-931 after jeopardy has
attached, jeopardy is terminated in the defendant’s
favor, regardless of the reason the State gives for
entering the dismissal. The State cannot then retry
the case without violating a defendant’s right to be
free from double jeopardy. When the State dismisses
a charge under section 15A-931 after jeopardy has
attached, jeopardy terminates. Thus, we affirm the

3a
decision of the Court of Appeals vacating defendant’s
conviction on double jeopardy grounds and remand to
the trial court for further proceedings consistent with
this opinion.
Background
Defendant was arrested on 2 November 2009 for
the murder of James Carol Deberry, which was
committed three days earlier on 31 October 2009; he
was indicted on 30 November 2009. Defendant’s trial
began on 6 December 2010, at which point a jury was
empaneled and evidence presented. On 9 December
2010, the trial court declared a mistrial after the jury
foreperson reported that the jury was hopelessly
deadlocked. Defendant was released the same day.
Following the hung jury mistrial declaration, the trial
court continued the case so the State could decide
whether it would re-try defendant on the murder
charge. The trial court held status hearings on 16
December 2010 and on 10 February 2011. The trial
court’s orders from both hearings noted that the case
had ended in mistrial and that it would be continued
to another status hearing for the State to decide
whether it intended to re-try defendant. Ultimately,
the State entered a dismissal of the murder charge
against defendant on 14 April 20111, by filing form
AOC-CR-307 with the trial court. Like many similar
forms, form AOC-CR-307 includes multiple options;
the State may use the form to enter a dismissal, a
The parties’ filings disagree on which day in April 2011 the
State entered its dismissal. However, the copy of the form
included in the record appears to be dated 14 April 2011, which
is also the date referenced in the Court of Appeals opinion. Any
disagreement over the date does not impact the result of the
case.
1

4a
dismissal with leave, or a notice of reinstatement for
a case that had previously been dismissed with leave.
The State left blank the sections for dismissal with
leave and reinstatement but checked the box in the
“dismissal” section next to the statement “[t]he
undersigned prosecutor enters a dismissal to the
above charge(s) and assigns the following reasons.”
The State checked the box marked “other” in the list
of reasons for dismissal and wrote underneath: “hung
jury, state has elected not to re-try case.” In addition,
the State modified a statement on the form to reflect
the circumstances so that it reads: “A jury has not
been impaneled nor and has evidence [sic] been
introduced.” The State’s voluntary dismissal of the
charge was signed by the prosecutor.
Several years passed, and the State discovered
additional evidence related to the case. In 2013 and
2014, fingerprints and DNA from a cigarette found at
the scene of the murder were found to belong to an
individual named Ivan McFarland. A review of the
cell phone activity for McFarland and defendant
revealed that defendant had McFarland’s cell phone
number in his phone, that five calls had been made
between the two phones on the night of the murder,
and that cell phone tower data placed both men in the
vicinity near where the murder occurred.
A second warrant for defendant’s arrest for
murder was issued on 16 June 2015, and defendant
was re-indicted on 6 July 2015.2 On 7 October 2016,
McFarland was also indicted for the murder, and, as noted
by the Court of Appeals, his trial was apparently scheduled to
take place after defendant’s trial. However, the record is silent
as to the outcome of McFarland’s trial.
2

5a
defendant filed a motion to dismiss the indictment
based on N.C.G.S. § 15A-931, the voluntary dismissal
statute, on estoppel and double jeopardy grounds, as
well as a second motion to dismiss the murder charge
for violating defendant’s rights to a speedy trial under
the state and federal constitutions. On 10 October
2016, the trial court in open court denied defendant’s
motion to dismiss based on double jeopardy. 3
Defendant was tried for the second time 31 October
2016 through 9 November 2016 in the Superior Court
in Wake County. At that trial, the jury found
defendant guilty of second-degree murder, and the
trial court sentenced defendant to between 220 and
273 months in prison.
Defendant’s motion to dismiss based on speedy
trial grounds was denied in open court on 31 October
2016, and an order with findings of fact and
conclusions of law was filed on 3 November 2016.
Defendant appealed to the Court of Appeals,
where he argued that his right to be free from double
jeopardy was violated when the State re-tried him on
the same charge following its voluntary dismissal of
the charge after defendant’s first trial ended in a hung
jury mistrial. In a unanimous opinion filed on 15 May
2018, the Court of Appeals agreed with defendant
that his second prosecution violated the Double
Jeopardy Clause of the United States Constitution.
State v. Courtney, 817 S.E.2d 412, 422 (2018) The

Defendant’s motion to dismiss based on speedy trial
grounds was denied in open court on 31 October 2016, and an
order with findings of fact and conclusions of law was filed on 3
November 2016.
3

6a
Court of Appeals noted that the Double Jeopardy
Clause does not prevent the State from retrying a
defendant following a hung jury mistrial, but it listed
three categories of jeopardy-terminating events that
do bar a subsequent prosecution—jury acquittals,
judicial acquittals, and “certain non-defenserequested terminations of criminal proceedings, such
as non-procedural dismissals or improperly declared
mistrials, that for double jeopardy purposes are
functionally equivalent to acquittals.” Id. at 418
(citing Lee v. United States, 432 U.S. 23, 30, 97 S. Ct.
2141, 2145, 53 L. Ed. 2d 80, 87 (1977); United States
v. Scott, 437 U.S. 82, 99–100, 98 S. Ct. 2187, 2198, 57
L. Ed. 2d 65, 79–80 (1978)). The panel concluded that
the dismissal entered by the State in this case fell
within this third category, “interpret[ing] section
15A-931 as according that dismissal the same
constitutional finality and conclusiveness as an
acquittal for double jeopardy purposes.” Id. at 419.
Thus, the Court of Appeals concluded that the trial
court had erred in denying defendant’s motion to
dismiss his 2015 indictment, and it vacated
defendant’s conviction. 4 On 20 September 2018, we
allowed the State’s petition for discretionary review of
the decision of the Court of Appeals.

Defendant raised three other issues before the Court of
Appeals. Defendant argued, in the alternative, that the trial
court erred in denying his motion to dismiss based on a violation
of his right to a speedy trial. In addition, defendant argued that
certain evidence was erroneously admitted at trial and that his
statutory right not to be tried within a week of his arraignment
was violated. Because the Court of Appeals found defendant’s
double jeopardy issue to be dispositive, it did not address his
remaining three arguments, none of which are the subject of this
appeal. Courtney, 817 S.E.2d at 416.
4

7a
Analysis
The Double Jeopardy Clause of the Fifth
Amendment of the United States Constitution states
that “[n]o person shall . . . be subject for the same
offence to be twice put in jeopardy of life or limb[.]”
U.S. Const. amend. V. The U.S. Constitution’s
guaranty against double jeopardy applies to the
states through the Fourteenth Amendment, see
Benton v. Maryland, 395 U.S. 784, 794, 89 S. Ct. 2056,
2062, 23 L. Ed. 2d 707, 716 (1969), and we have long
recognized that the Law of the Land Clause found in
our state’s constitution also contains a prohibition
against double jeopardy, N.C. Const. art. I, § 19; State
v. Sanderson, 346 N.C. 669, 676, 488 S.E.2d 133, 136
(1997); see also State v. Crocker, 239 N.C. 446, 80
S.E.2d 243 (1954). “The underlying idea [of this
constitutional protection] is that the State with all its
resources and power should not be allowed to make
repeated attempts to convict an individual for an
alleged offense, thereby subjecting him to
embarrassment, expense and ordeal and compelling
him to live in a continuing state of anxiety and
insecurity, as well as enhancing the possibility that
even though innocent he may be found guilty.” Green
v. United States, 355 U.S. 184, 187–88, 78 S. Ct. 221,
223, 2 L. Ed. 2d 199, 204 (1957). In situations where
jeopardy has not attached or where, having attached,
jeopardy has not yet been terminated, the State
retains the power to proceed with a prosecution. But
under the Double Jeopardy Clause, “once a defendant
is placed in jeopardy for an offense, and jeopardy
terminates with respect to that offense, the defendant
may neither be tried nor punished a second time for
the same offense.” Sattazahn v. Pennsylvania, 537

8a
U.S. 101, 106, 123 S. Ct. 732, 736, 154 L. Ed. 2d 588,
595 (2003) (citation omitted).
When the Double Jeopardy Clause is implicated,
an individual’s right to be free from a second
prosecution is not up for debate based upon
countervailing policy considerations. See Burks v.
United States, 437 U.S. 1, 11 n.6, 98 S. Ct. 2141, 2147
n.6, 57 L. Ed. 2d 1, 9 n.6 (1978) (“[W]here the Double
Jeopardy Clause is applicable, its sweep is absolute.
There are no ‘equities’ to be balanced, for the Clause
has declared a constitutional policy, based on grounds
which are not open to judicial examination.”).
We review de novo a defendant’s claim that a
prosecution violated the defendant’s right to be free
from double jeopardy. State v. Sparks, 362 N.C. 181,
186, 657 S.E.2d 655, 658 (2008). The United States
Supreme Court has recognized a two-pronged
analysis to determine whether a violation of the
Double Jeopardy Clause has occurred: “First, did
jeopardy attach to [the defendant]? Second, if so, did
the proceeding end in such a manner that the Double
Jeopardy Clause bars his retrial?” Martinez v.
Illinois, 572 U.S. 833, 838, 134 S. Ct. 2070, 2074, 188
L. Ed. 2d 1112, 1117 (2014).
The State asks this Court to hold that neither of
these two preconditions for a double jeopardy
violation were present here and that, therefore, the
re-trial in this case did not offend double jeopardy
principles.
First,
the
State
argues
that,
notwithstanding the fact that the defendant was tried
once for this murder charge, jeopardy never attached
under these circumstances, meaning that jeopardy

9a
attached for the first time when the jury was
empaneled in the second trial. Second, the State
contends that, even if jeopardy did attach when the
jury was empaneled and sworn in the first trial, the
prosecution’s voluntary dismissal of the indictment
under N.C.G.S. § 15A-931 was not an event that
terminated jeopardy. We are not persuaded by either
argument and conclude that the unanimous panel
below correctly held that the second trial of defendant
violated his rights under the Double Jeopardy Clause.
I. Attachment and Continuation of Jeopardy
“There are few if any rules of criminal procedure
clearer than the rule that ‘jeopardy attaches when the
jury is empaneled and sworn.’ ” Martinez, 572 U.S. at
839, 134 S. Ct. at 2074, 188 L. Ed. 2d at 1117
(citations omitted). See also State v. Shuler, 293 N.C.
34, 42, 235 S.E.2d 226, 231 (1977) (“Jeopardy attaches
when a defendant in a criminal prosecution is placed
on trial: (1) on a valid indictment or information, (2)
before a court of competent jurisdiction, (3) after
arraignment, (4) after plea, and (5) when a competent
jury has been empaneled and sworn.”).
Though retrials may proceed in certain
circumstances without violating the Due Process
Clause, such as when a trial ends in mistrial or when
a defendant secures the relief of a new trial after an
original conviction is vacated on appeal, 5 see
5

Because we recognize that the State may proceed with a
retrial when a defendant secures the relief of a new trial after an
original conviction is vacated on appeal, the dissent’s assertion
that our holding “would also apply to cases reversed on appeal”
is incorrect. Our holding is limited to the facts presented here.

10a
Richardson v. United States, 468 U.S. 317, 326, 104 S.
Ct. 3081, 3086, 82 L. Ed. 2d 242, 251 (1984), “it
became firmly established by the end of the 19th
century that a defendant could be put in jeopardy
even in a prosecution that did not culminate in a
conviction or an acquittal, and this concept has been
long established as an integral part of double jeopardy
jurisprudence.” Crist v. Bretz, 437 U.S. 28, 34, 98 S.
Ct. 2156, 2160, 57 L. Ed. 2d 24, 30 (1978).
In Richardson v. United States, the United States
Supreme Court, recognizing that jeopardy attaches
when a jury is sworn, held that a hung jury mistrial
does not terminate that jeopardy in the defendant’s
favor. 468 U.S. at 326, 104 S. Ct. at 3086, 82 L. Ed. 2d
at 251. Specifically, the Court stated
we reaffirm the proposition that a trial court’s
declaration of a mistrial following a hung jury
is not an event that terminates the original
jeopardy to which petitioner was subjected.
The Government, like the defendant, is
entitled to resolution of the case by verdict
from the jury, and jeopardy does not
terminate when the jury is discharged
because it is unable to agree.
Id. The Richardson Court rejected the defendant’s
implicit argument that his hung jury mistrial was a
jeopardy-terminating
event
but,
importantly,
recognized the fact that jeopardy had attached and
remained attached following the mistrial. Id. at 325,
104 S. Ct. at 3086, 82 L. Ed. 2d at 251 (“Since jeopardy
attached here when the jury was sworn, petitioner’s
argument necessarily assumes that the judicial

11a
declaration of a mistrial was an event which
terminated jeopardy in his case and which allowed
him to assert a valid claim of double jeopardy. But
this proposition is irreconcilable with [the Court’s
prior cases], and we hold on the authority of these
cases that the failure of the jury to reach a verdict is
not an event which terminates jeopardy.”) (citing
United States v. Martin Linen Supply Co., 430 U.S.
564, 569, 97 S. Ct. 1349, 1353, 51 L. Ed.2d 642 (1977)).
The principle affirmed in Richardson that the
original jeopardy continues, rather than terminates,
following a hung jury mistrial, has been reaffirmed in
more recent statements from the Court. See Yeager v.
United States, 557 U.S. 110, 118, 129 S. Ct. 2360,
2366, 174 L. Ed. 2d 78, 87 (2009) (“[W]e have held that
the second trial does not place the defendant in
jeopardy ‘twice.’ Instead, a jury’s inability to reach a
decision is the kind of ‘manifest necessity’ that
permits the declaration of a mistrial and the
continuation of the initial jeopardy that commenced
when the jury was first impaneled.”) (emphasis
added) (citations omitted).
The State concedes that jeopardy attaches when a
jury is empaneled; however, it argues that the
occurrence of a hung jury mistrial sets in motion a
legal fiction in which the clock is wound back, placing
the case back in pre-trial status such that jeopardy is
deemed never to have attached. 6 The State’s
argument posits two necessary conditions.
At oral argument, counsel for the State instead argued that
jeopardy “unattaches,” a phenomenon that the State specifically
disclaims in its brief. Compare New Brief for the State at 8, State
v. Courtney, No. 160PA18 (N.C. November 21, 2018) (“Although
6

12a
First, the State argues that the United States
Supreme Court has never held that jeopardy
continues following a mistrial, notwithstanding the
clear language to the contrary found in Richardson
and Yeager. The State contends that the multiple
statements by the Court appearing to embrace the
doctrine of continuing jeopardy are dicta because a
number of those cases did not squarely address the
Double Jeopardy Clause’s limits on prosecutors’
ability to bring a second prosecution on the same
charge following a declaration of a hung-jury mistrial
that was not sought by the defendant. The State
argues that even Richardson’s continuing jeopardy
discussion is “[a]rguably . . . dictum because by
finding a mistrial was not a terminating event, it was
immaterial whether or not jeopardy had continued, as
opposed to the case being placed back in the pre-trial
posture[.]”
the court below believed the State was contending jeopardy
‘unattached’ with the mistrial, the State’s actual argument is
that, based on case law from this Court, the mistrial created the
legal fiction that jeopardy never attached in the first place.”)
(citation and footnote omitted) (emphasis in original) with Oral
Argument at 55:08–55:18, 57:36–57:51, State v. Courtney, No.
160PA18 (N.C. May 15, 2019) (“I would ask this Court to look at
this Court’s holding in State v. Lachat, which found that when
there is a mistrial, jeopardy unattaches.”; “After a hung jury, the
jeopardy in that situation unattaches and then when the State
made this dismissal, the State was in a pretrial procedure at that
point, and therefore the State could bring back these charges and
retry the defendant.”) (emphases added). While we primarily
focus here on the State’s contention in its brief that jeopardy
never attached, we also find no legal support for its alternative
formulation that jeopardy “unattaches” following a hung jury
mistrial. Both arguments—that jeopardy never attached and
that jeopardy unattached—are foreclosed by the continuing
jeopardy principle embraced by the United States Supreme
Court in Richardson.

13a
The second element of the State’s argument that
jeopardy did not attach appears to be as follows:
because the U.S. Supreme Court, in the State’s view,
has not formally adopted the continuing jeopardy
doctrine, this Court is free to follow its own precedent
on the matter. The State further argues that this
Court has explicitly held that upon the declaration of
a hung jury mistrial, a legal fiction goes into effect
under which jeopardy is deemed never to have
attached at the first trial, meaning that no jeopardy
exists to continue and eventually terminate. Thus,
the State contends that, following his 2010 trial,
defendant was placed in precisely the same position
in which he stood before trial, and it was only when
the jury was empaneled at defendant’s second trial in
2016 that jeopardy first attached. We find both
components of the State’s proffered theory that
defendant was not in jeopardy at the time of the
mistrial to be wholly without merit.
In Richardson, the Supreme Court stated multiple
times that jeopardy, which existed prior to a mistrial,
does not terminate following the mistrial. The Court
in Richardson “reaffirm[ed] the proposition that a
trial court’s declaration of a mistrial following a hung
jury is not an event that terminates the original
jeopardy to which petitioner was subjected,” and
reiterated that “jeopardy does not terminate when the
jury is discharged because it is unable to agree.”
Richardson, 468 U.S. at 326, 104 S. Ct. at 3086, 82 L.
Ed. 2d at 251 (emphases added). The State argues,
however, that merely because the Richardson Court
held that “jeopardy does not terminate” following a
hung jury mistrial “does not necessarily mean that
jeopardy had continued” because, under the State’s

14a
theory, jeopardy would not terminate because
jeopardy would no longer be deemed in effect. While
this is a creative argument, it is foreclosed by a
commonsense reading of Richardson.
First, the Richardson Court clearly contemplates
the continuation of jeopardy at the time of the
mistrial. If the Court had intended to say that
jeopardy, which attaches when the jury is empaneled,
can—only in the singular context of a hung jury
mistrial—be retroactively deemed never to have
attached, it could have done so. Instead, the Court
stated that the original jeopardy did not terminate,
thus signaling that jeopardy continued. We see no
logical interpretation of the Court’s declaration in
Richardson that the original jeopardy did not
terminate other than to acknowledge that the original
jeopardy continued.7

The dissenting justice in Richardson also acknowledged
the Court’s adoption of the continuing jeopardy principle.
Writing in dissent in Richardson, Justice Brennan argued that
the majority’s approach “improperly ignores the realities of the
defendant’s situation and relies instead on a formalistic concept
of ‘continuing jeopardy.’ ” Richardson, 468 U.S. at 327, 104 S. Ct.
at 3087, 82 L. Ed. 2d at 252 (Brennan, J., concurring in part and
dissenting in part) (emphasis added). See also Yeager v. United
States, 557 U.S. 110, 129, 129 S. Ct. 2360, 2372, 174 L. Ed. 2d
78, 94 (2009) (Scalia, J., dissenting) (“This Court has extended
the protections of the Double Jeopardy Clause by holding that
jeopardy attaches earlier: at the time a jury is empanelled and
sworn. . . . [D]ischarge of a deadlocked jury does not ‘terminat[e]
the original jeopardy.’ Under this continuing-jeopardy principle,
retrial after a jury has failed to reach a verdict is not a new trial
but part of the same proceeding.”) (emphasis added) (footnote
omitted) (citations omitted).
7

15a
Second, the outcome and legal significance of
Richardson cannot be separated from its text. The
continuing jeopardy doctrine reaffirmed by
Richardson provided a rationale for the longstanding
practice of permitting retrial following a hung jury
mistrial that was consistent with the guarantee of the
Double Jeopardy Clause. See Richardson, 468 U.S. at
324, 104 S. Ct. at 3085, 82 L. Ed. 2d at 250 (citing
Logan v. United States, 144 U.S. 263, 297–98, 12 S.
Ct. 617, 627–28, 36 L. Ed. 429, 441 (1892); Arizona v.
Washington, 434 U.S. 497, 509, 98 S. Ct. 824, 832, 54
L. Ed. 2d 717, 730 (1978)).
The State here argues against the existence of a
legal principle that secures the government’s right to
retry a defendant following mistrial in the face of legal
opposition to those retrials on double jeopardy
grounds. The State rejects the principle that
permitted the Government to prevail in Richardson—
that jeopardy continues, rather than terminates,
following a mistrial—in favor of an argument that,
following a mistrial, jeopardy neither continues nor
terminates but rather is deemed never to have
attached in the first place. Thus, the State’s argument
that the Supreme Court has not embraced the
principle of continuing jeopardy following a mistrial
is unsupported by either the text or context of
Richardson.
The State also points to United States v. Sanford,
429 U.S. 14, 97 S. Ct. 20, 50 L. Ed. 2d 17 (1976) (per
curiam) to support its argument that, following a
hung jury mistrial, a defendant is placed back in a
pre-trial posture and jeopardy is deemed not to have
attached. In Sanford, defendants were indicted for

16a
illegal game hunting, and their trial resulted in a
hung jury mistrial. Id. at 14, 97 S. Ct. at 20, 50 L. Ed.
2d at 19. Four months later, as the Government was
preparing to retry the case, the trial court granted the
defendants’ motion to dismiss the indictment,
concluding that the Government had consented to the
activities described in the indictment. Id. The
Government appealed. Id. The Supreme Court
reversed a decision of the circuit court dismissing the
Government’s appeal on double jeopardy grounds,
concluding that “[t]he dismissal in this case, like that
in [Serfass v. United States, 420 U.S. 377, 95 S. Ct.
1055, 43 L. Ed. 2d 265 (1975)], was prior to a trial that
the Government had a right to prosecute and that the
defendant was required to defend,” id. at 16, 97 S. Ct.
at 21–22, 50 L. Ed. 2d at 20, and that “in such cases a
trial following the Government’s successful appeal of
a dismissal is not barred by double jeopardy,” id. at
16, 97 S. Ct. at 22, 50 L. Ed. 2d at 20.
Though the State is correct that Sanford includes
language analogizing the dismissal in that case to the
pretrial dismissal considered in Serfass, see id. at 16,
97 S. Ct. at 21, 50 L. Ed. 2d at 20, there are two
reasons why Sanford does not control here. First,
Richardson was decided eight years after Sanford,
meaning that if the two opinions were in conflict,
Richardson would control. The Court in Sanford
issued only a brief per curiam opinion without oral
argument, see id. at 16, 97 S. Ct. at 22, 50 L. Ed. 2d
at 20 (Brennan & Marshall, JJ., dissenting from
summary reversal and indicating that they would
have set the case for oral argument); however, the
Court included a more robust analysis of double
jeopardy principles in its later opinion in Richardson.

17a
Second, the result in Sanford is consistent with
the principle discussed two years later in United
States v. Scott. In Scott, the Court held that the State
was permitted to appeal a defendant-requested
dismissal of charges after jeopardy had attached. 437
U.S. at 101, 98 S. Ct. at 2198–99, 57 L. Ed. 2d at 80–
81. The Court explained that
the defendant, by deliberately choosing to
seek termination of the proceedings against
him on a basis unrelated to factual guilt or
innocence of the offense of which he is
accused, suffers no injury cognizable under
the Double Jeopardy Clause if the
Government is permitted to appeal from such
a ruling of the trial court in favor of the
defendant. . . . [T]he Double Jeopardy Clause,
which
guards
against
Government
oppression, does not relieve a defendant from
the consequences of his voluntary choice.
Id. at 98–99, 98 S. Ct. at 2198, 57 L. Ed. 2d at 79.
Unlike in Sanford and Scott, the dismissal here was
entered unilaterally by the State rather than by a
trial court granting defendant’s request. Thus, this
line of cases is not applicable to the facts before us.
We now move to the second element of the State’s
theory that jeopardy attached for the first time at
defendant’s second trial. As the sole support for its
theory that this Court has adopted the principle that
jeopardy is deemed never to have previously attached
at the point that the trial court declares a mistrial,
the State points to a single statement from this
Court’s decision in State v. Lachat, 317 N.C. 73, 343

18a
S.E.2d 872 (1986). The State notes that we stated in
Lachat that “[w]hen a mistrial is declared properly for
such reasons [as a deadlocked jury], ‘in legal
contemplation there has been no trial.’ ” 317 N.C. at
82, 343 S.E.2d at 877 (quoting State v. Tyson, 138
N.C. 627, 629, 50 S.E. 456, 456 (1905)).
The Lachat Court quoted this phrase from our
1905 decision in State v. Tyson, 138 N.C. at 629, 50
S.E. at 456. In Tyson, we held that a defendant’s
double jeopardy right was not violated when the jury
was empaneled, the trial court declared a mistrial due
to the intoxication of one of the jurors, and the
defendant was re-tried and convicted. Id. We stated
in Tyson that
[w]here a jury has been impaneled and
charged with a capital felony, and the
prisoner’s life put in jeopardy, the court has
no power to discharge the jury, and hold the
prisoner for a second trial, except in cases of
absolute necessity. Where such absolute
necessity appears from the findings of the
court, and in consequence thereof the jury has
been discharged, then in legal contemplation
there has been no trial.
Id. (citation omitted). Significantly, though we stated
that there had been “no trial” in this situation, such
that the defendant was not subject to double jeopardy,
we did not state that, due to the mistrial, there had
been “no jeopardy.” To the contrary, by noting that a
jury may be discharged only “in cases of absolute
necessity” after “the prisoner’s life [has been] put in
jeopardy,” we implicitly acknowledged—from the

19a
post-mistrial perspective—that the defendant in
Tyson had been in jeopardy during his first trial.
Eight decades later in Lachat, this Court quoted
the phrase from Tyson in a somewhat different
context. In Lachat, we held that a defendant’s second
trial should have been barred due to former jeopardy8
based on the particular findings of fact and
conclusions made by the trial court. Lachat, 317 N.C.
at 74, 83–84, 343 S.E.2d at 872, 877. Our ruling in
Lachat was a fact-specific determination that the trial
court had erred in declaring a mistrial before making
a proper determination on whether the jury was, in
fact, hopelessly deadlocked. Id. at 84–85, 343 S.E.2d
at 878. In setting out the applicable law in that case,
we stated that the double jeopardy principle
is not violated where a defendant’s first trial
ends with a mistrial which is declared for a
manifest necessity or to serve the ends of
public justice. “It is axiomatic that a jury’s
failure to reach a verdict due to a deadlock is
a ‘manifest necessity’ justifying the
declaration of a mistrial.” When a mistrial is
declared properly for such reasons, “in legal
contemplation there has been no trial.”
State v. Lachat, 317 N.C. at 82, 343 S.E.2d at 877
(first citing and quoting State v. Simpson, 303 N.C.
439, 447, 279 S.E.2d 542, 547 (1981), then quoting
Tyson, 138 N.C. at 629, 50 S.E. at 456). Thus, the
Lachat was not decided under the Double Jeopardy Clause
of the United States Constitution but rather “on adequate and
independent grounds of North Carolina law.” 317 N.C. at 77, 343
S.E.2d at 874.
8

20a
Court opined that following a properly declared
mistrial, including a mistrial declared due to a
hopelessly deadlocked jury, “in legal contemplation
there has been no trial.” Because Lachat explicitly
involved an improperly declared mistrial, any
discussion of the consequences stemming from a
properly declared mistrial is not conclusive on this
point. More importantly, the “no trial” language
quoted in Lachat again falls far short of declaring that
a defendant in such a situation has not been placed in
jeopardy. Nor could this Court have made such a
statement, given that, just two years earlier, the
Supreme Court in Richardson had embraced the
doctrine that jeopardy continues following a hung
jury mistrial.9
This Court’s prior statements that “in legal
contemplation there has been no trial” were made in
In its brief, the State also references State v. Sanders, 347
N.C. 587, 496 S.E.2d 568 (1998), the most recent case from this
Court to quote Tyson’s “no trial” language, though as with
Lachat, it provides no analysis of the case. In Sanders, we upheld
the propriety of a trial court’s declaration of a mistrial due to the
“manifest necessity” of jury misconduct in a sentencing
proceeding, such that the defendant’s double jeopardy rights
would not be violated by a subsequent sentencing proceeding. Id.
at 599–601, 496 S.E.2d at 576–77. In setting forth the reasoning
for our conclusion, we discussed the right of a defendant to be
free from double jeopardy and noted that this right is not
violated when a mistrial is declared due to manifest necessity.
Id. at 599, 496 S.E.2d at 576. Then we stated that “[w]hen a
mistrial has been declared properly, ‘in legal contemplation
there has been no trial.’ ” Id. (quoting Tyson, 138 N.C. at 629, 50
S.E. at 456). As is the case with Tyson and Lachat, Sanders
includes no statement that jeopardy is deemed, following the
mistrial, never to have attached in the first place. Like Lachat,
Sanders also post-dated Richardson, which would have
foreclosed any holding that jeopardy did not remain attached
following a mistrial.
9

21a
the context of explaining why the State is permitted
to retry a defendant following a properly declared
mistrial, which was also the context for the U.S.
Supreme Court’s embrace of the continuing jeopardy
doctrine in Richardson. The State contends that “[i]f
a hung jury creates the legal fiction that ‘there has
been no trial,’ then by definition a jury was never
empaneled and defendant was never placed in
jeopardy.” But in our view the State reads this
explanatory phrase from our prior opinions too
expansively. Contrary to the State’s view, this Court
did not with those eight words adopt an exception to
the longstanding rule recognized by this Court and
the United States Supreme Court that jeopardy
attaches when a jury is empaneled, nor did we hold
that a legal fiction acts to invalidate the jeopardy that
a defendant, even one who is later retried, did in fact
experience at a first trial.10
Although the State contends this Court already adopted
its proffered legal fiction as a holding in Lachat, it also seeks to
highlight the usefulness of legal fictions by analogizing this
situation before us to other situations where legal fictions have
been employed. In a footnote on legal fictions in its brief, the
State contends that “[h]ere, resetting the proceedings after a
hung jury mistrial to pre-trial status is not all that different than
other legal fictions such as nunc pro tunc orders and the relationback doctrine.” One of the cases the State cites in this discussion
is Costello v. Immigration & Naturalization Serv., 376 U.S. 120,
130, 84 S. Ct. 580, 586, 11 L. Ed. 2d 559, 565 (1964). But Costello
declined to apply the relation-back doctrine in the manner urged
by the government in that case and disparaged the legal fiction
concept in the process. Id. at 130, 84 S. Ct. at 586, 11 L. Ed. 2d
559, 565–66 (“The relation-back concept is a legal fiction at best,
and even the respondent concedes that it cannot be
‘mechanically applied.’ . . . This Court declined to apply the
fiction in a deportation context in [a prior] case, and we decline
to do so now.”). The Court further stated that, “[i]n this area of
the law, involving as it may the equivalent of banishment or
10

22a
The State argues that “the continuing jeopardy
doctrine . . . is a slender reed upon which to base a
determination that defendant’s double jeopardy
rights were violated.” On the contrary, we conclude
that this century-old statement from this Court is a
“slender reed” intended only to explain the State’s
ability to re-try a defendant following a mistrial. This
Court has not adopted an elaborate legal fiction under
which jeopardy attaches when a jury is empaneled
and then simply ceases to apply when the trial court
declares a mistrial. This Court has not embraced the
proposition proffered by the State and does not do so
today. Instead, relying upon the commonsense
meaning of binding Supreme Court precedents, we
reaffirm that jeopardy continues following a mistrial
until the occurrence of a jeopardy-terminating event.
Because we conclude that the original jeopardy
continued following defendant’s mistrial, we turn to
the second part of our analysis and consider whether
the State’s subsequent dismissal of defendant’s
murder indictment terminated the original jeopardy,
such that defendant’s second trial placed him in
jeopardy a second time in violation of both the federal
and state constitutions.
II. Voluntary Dismissal Terminating Jeopardy
Defendant concedes that the State, under the
doctrine of continuing jeopardy, could have retried
him following the mistrial without violating the
Double Jeopardy Clause. He argues, however, that
exile, we do well to eschew technicalities and fictions and to deal
instead with realities.” Id. at 131, 84 S. Ct. at 587, 11 L. Ed. 2d
at 566.

23a
the State’s unilateral decision to enter a voluntary
dismissal of the murder indictment under N.C.G.S. §
15A-931 after jeopardy had attached was an event
that terminated defendant’s original jeopardy, thus
preventing the State from subsequently retrying him.
We hold that where, as here, the State dismisses a
charge under section 15A-931 after jeopardy has
attached, a defendant’s right to be free from double
jeopardy under the federal and state constitutions is
violated if the State initiates a subsequent
prosecution on the same charge. Thus, we affirm the
holding of the Court of Appeals that the State’s
dismissal of a charge under section 15A-931 is binding
on the state and is tantamount to an acquittal,
making it a jeopardy-terminating event for double
jeopardy purposes.
North Carolina has two statutes governing the
State’s ability to voluntarily dismiss charges, either
with or without leave to reinstate those charges.
Section 15A-931 of the General Statutes (“Voluntary
dismissal of criminal charges by the State.”) reads as
follows:
Except as provided in G.S. 20-138.4,1111 the
prosecutor may dismiss any charges stated in
a criminal pleading including those deferred
for prosecution by entering an oral dismissal
in open court before or during the trial, or by
filing a written dismissal with the clerk at any
The statute referenced herein applies only to impliedconsent and impaired driving with license revoked offenses and
requires that a voluntary dismissal by the State be accompanied
by detailed reasons and other information related to the case.
N.C.G.S. § 20-138.4(a)(1), (b) (2017).
11

24a
time. The clerk must record the dismissal
entered by the prosecutor and note in the case
file whether a jury has been impaneled or
evidence has been introduced.
N.C.G.S. § 15A-931(a) (2017).
By contrast, N.C.G.S. § 15A-932 (“Dismissal with
leave when defendant fails to appear and cannot be
readily found or pursuant to a deferred prosecution
agreement.”) allows a prosecutor to dismiss charges
with leave to reinstate them under specific
circumstances. Under section 15A-932,
The prosecutor may enter a dismissal with leave for
nonappearance when a defendant:
(1) Cannot be readily found to be served with
an order for arrest after the grand jury had
indicted him; or
(2) Fails to appear at a criminal proceeding at
which his attendance is required, and the
prosecutor believes the defendant cannot be
readily found.
N.C.G.S. § 15A-932(a) (2017) and
The prosecutor may enter a dismissal with
leave pursuant to a deferred prosecution
agreement entered into in accordance with
the provisions of Article 82 of this Chapter.
Id. § 15A-932(a1). A prosecutor may reinstate charges
dismissed with leave under these provisions upon
apprehension of a defendant who previously could not
be found or if a defendant fails to comply with the

25a
terms of a deferred prosecution agreement. Id. § 15A932(d), (e).
Section 15A-932 establishes a few specifically
enumerated circumstances in which the State may
dismiss a charge with leave to refile, such that a
dismissal under this statute does not necessarily
contemplate the end of the prosecution. All other
voluntary dismissals entered by the State are
governed by section 15A-931. In State v. Lamb, 321
N.C. 633, 641, 365 S.E.2d 600, 604 (1988) we
contrasted the effect of these two provisions, nothing
that section 15A-931 provides “a simple and final
dismissal which terminates the criminal proceedings
under that indictment” (citing N.C.G.S. § 15A-931
official cmt.) while a dismissal under section 15A-932
“results in removal of the case from the court’s docket,
but the criminal proceeding under the indictment is
not terminated.” (emphasis in original). Before a
defendant has been tried, “[s]ection 15A-931 does not
bar the bringing of the same charges upon a new
indictment,” id. but, even in a pre-attachment
context, the key characteristic of a dismissal entered
under 15A-931 is its finality. In the context of an
analysis of the now-repealed Speedy Trial Act in
Lamb, we noted that the finality provided by the
statute precluded consideration of any time that
accrued between the time when a first indictment was
dismissed under section 15A-931 and a new
indictment was secured for purposes of a statutory
speedy trial claim; by contrast, no such consequence
resulted from a section 15A-932 dismissal.12
In Lamb, the State entered a pretrial dismissal of the
indictment “[w]ith [l]eave [p]ending the completion of the
investigation.” 321 N.C. at 635, 365 S.E.2d at 601. However,
12

26a
It appears that the legislature contemplated the
possibility that a dismissal under section 15A-931
might have double jeopardy implications and, further,
that the State might enter a voluntary dismissal
sometime other than during the middle of a trial.
Section 15A-931(a) dictates that “[t]he clerk must
record the dismissal entered by the prosecutor and
note in the case file whether a jury has been impaneled
or evidence has been introduced” and directs that the
State may dismiss a charge “by entering an oral
dismissal in open court before or during the trial, or
by filing a written dismissal with the clerk at any
time.” (Emphases added). The State suggested at oral
argument that the statutory language contemplating
the attachment of jeopardy was intended only to ward
against the double jeopardy implications of a
voluntary dismissal entered by the State mid-trial.
But this contention is undermined by the specific
language in the statute authorizing entry of a
dismissal before a trial, during a trial, or at any time.
While the text of section 15A-931 fully supports
the conclusion that the legislature intended a
dismissal under this section to have such a degree of
finality that double jeopardy protections would come
into play, this reading finds further support in the
official commentary to the statute. See State v. Jones,
819 S.E.2d 340, 344 (2018) (“The commentary to a
statutory provision can be helpful in some cases in
discerning legislative intent.” (quoting Parsons v.
Jefferson-Pilot Corp., 333 N.C. 420, 425, 426 S.E.2d
685, 689 (1993)); State v. Williams, 315 N.C. 310, 327,
because none of the circumstances described in section 15A-932
actually occurred, we concluded that the “with leave” language
was merely surplusage and that the dismissal in fact was
entered under section 15A-931. Id. at 642, 365 S.E.2d at 604–05.

27a
338 S.E.2d 75, 85 (1986) (“Although the official
commentary was not drafted by the General
Assembly, we believe its inclusion in The Criminal
Procedure Act is some indication that the legislature
expected and intended for the courts to turn to it for
guidance when construing the Act.”).
The Criminal Code Commission provided
following commentary to section 15A-931:

the

The case of Klopfer v. North Carolina, 386
U.S. 213 [87 S.Ct. 988, 18 L.Ed.2d 1], held in
1967, that our system of “nol pros” was
unconstitutional when it left charges pending
against a defendant and he was denied a
speedy trial. Thus the Commission here
provides for a simple and final dismissal by
the solicitor. No approval by the court is
required, on the basis that it is the
responsibility of the solicitor, as an elected
official, to determine how to proceed with
regard to pending charges. This section does
not itself bar the bringing of new charges.
That would be prevented if there were a
statute of limitations which had run, or if
jeopardy had attached when the first charges
were dismissed.
N.C.G.S. § 15A-931 (2017) (official cmt.) (emphasis
added). The explicit statement in the commentary
that the bringing of new charges “would be
prevented . . . if jeopardy had attached when the first
charges were dismissed,” id., provides further insight
into the legislature’s intent for a 15A-931 dismissal.
This commentary suggests that such a dismissal

28a
would be viewed as a jeopardy-terminating event for
purposes of the Double Jeopardy Clause.
In reaching its conclusion that the State’s
dismissal of defendant’s murder charge was a
terminating event that prevented him from being
retried, the Court of Appeals “f[ou]nd further
guidance from [this] Court’s explanation and
application of the ‘State’s election’ rule.” State v.
Courtney, 817 S.E.2d 412, 420 (2018) (citing State v.
Jones, 317 N.C. 487, 346 S.E.2d 657 (1986)). Like the
panel below, we also find the rule discussed in Jones
to be instructive here. In Jones, this Court reviewed
the case of a defendant whose indictment arguably13
was sufficient to charge him with first-degree rape
but who was arraigned only on the charge of seconddegree rape. Jones, 317 N.C. at 491–92, 346 S.E.2d at
659–60. No discussion at all of a first-degree rape
charge occurred until after the close of all evidence,
when the prosecutor proposed an instruction on firstdegree rape. Jones, 317 N.C. at 491, 346 S.E.2d at
659. Jones was ultimately convicted of first-degree
rape, id., and appealed his conviction to this Court. In
our decision vacating defendant’s conviction for firstdegree rape, we held that
by unequivocally arraigning the defendant on
second-degree rape and by failing thereafter
to give any notice whatsoever, prior to the
The Jones Court did not reach the issue of whether or not
the indictment, which contained a sufficient description of firstdegree rape in the body of the indictment but also contained a
caption and statutory citation that both referenced seconddegree rape, would have been sufficient to charge first-degree
rape absent the State’s post-jeopardy election. 317 N.C. at 493,
346 S.E.2d at 660–61.
13

29a
jury being impaneled and jeopardy attaching,
of an intent instead to pursue a conviction for
first-degree rape arguably supported by the
short-form indictment, the State made a
binding election not to pursue the greater
degree of the offense, and such election was
tantamount to an acquittal of first-degree
rape.
Id. at 494, 346 S.E.2d at 661 (emphasis in original).14
While the State correctly notes that this case
presents a different circumstance from that detailed
in Jones, it does not adequately explain why a
prosecutor’s unilateral, post-attachment decision to
terminate the entire prosecution should be less
binding on the State than its post-attachment
decision to pursue a lesser charge. By making the
unilateral choice to enter a final dismissal of
defendant’s murder charge after jeopardy had
attached, the State made a binding decision not to
retry the case. Thus, we conclude that the State’s
post-attachment dismissal of defendant’s indictment
was tantamount to, or the functional equivalent of, an
acquittal, which terminated the original jeopardy
that had continued following the declaration of a hung
jury mistrial in defendant’s case.

In reaching our conclusion in Jones that the State had
made a binding election to pursue only the charge of seconddegree rape, we also noted that the State had “that charge [for
second-degree rape] entered of record in the clerk’s minutes of
arraignment.” Id. at 493, 346 S.E.2d at 660-61.
14

30a
Conclusion
At his first trial, defendant was unquestionably
placed in jeopardy, which continued after his first
trial ended with a hung jury mistrial. As explained by
the continuing jeopardy doctrine, the mistrial was not
a terminating event that deprived the State of the
opportunity to retry defendant. Rather, as defendant
acknowledges, the State at that time could have tried
defendant again on the existing charge without
violating his double jeopardy rights. Instead of
exercising that opportunity to retry defendant, the
State entered a final dismissal of the charge,
unilaterally and irrevocably terminating the
prosecution and, with it, defendant’s original
jeopardy. Under the Double Jeopardy Clause, the
State was then barred from retrying defendant for the
same crime.15
Because defendant’s jeopardy remained attached
following the mistrial declaration in his first trial and
was terminated when the State subsequently entered
a dismissal of the charge under N.C.G.S. § 15A-931,
we conclude that defendant’s second prosecution was
barred by the Double Jeopardy Clause and that the
trial court erred in denying defendant’s motion to
dismiss his 2015 murder indictment on double
jeopardy grounds. Thus, we affirm the Court of
Appeals’ decision vacating defendant’s murder
conviction.
AFFIRMED.
Of course there may have been crimes other than lesser
included offenses of murder with which defendant could have
been charged arising from the same incident. See State v. Wilson,
338 N.C. 244, 261, 449 S.E.2d 391, 401 (1994).
15

31a
Justice NEWBY dissenting.
The general principles governing double jeopardy
provide that when a trial ends in a mistrial the State
can retry that defendant on the same charges.
Procedurally, the subsequent new trial has all the
same stages as the original one, including a pretrial
stage. A dismissal during the pretrial stage does not
prevent a subsequent re-indictment and retrial. The
majority ignores these general principles and, by its
holding, makes North Carolina an outlier in the
country. Guided by a misapplication of the concept of
continuing jeopardy, the majority effectively
eliminates a complete, new trial after a mistrial (or
reversal on appeal), removing any pretrial
proceedings. Under its theory, once jeopardy attaches
with the first trial, it continues, affecting everything
that occurs thereafter. The majority’s interpretation
of continuing jeopardy means any motion or dismissal
after a mistrial is treated as if made midtrial. Thus,
after a mistrial, a pretrial dismissal is deemed an
acquittal. Because of the majority’s hyper-technical
application of its view of the continuing jeopardy
theory, defendant’s murder conviction is vacated, and
he goes free. The fundamental right against being
tried twice for the same crime does not require this
outcome.
The State’s dismissal here does not address
defendant’s guilt or innocence and therefore is not the
functional equivalent of a jury verdict of acquittal.
Regardless of which abstract legal theory of jeopardy
informs this Court, it should not stray from the
fundamental concepts governing mistrials and double
jeopardy. The mistrial here returned the criminal

32a
proceedings to a pretrial status and allowed for a
dismissal of the charge without prejudice. This
approach is consistent with the long-established
precedent of the Supreme Court of the United States
and this Court that, after a mistrial, the trial process
“proceed[s] anew,” United States v. Scott, 437 U.S. 82,
92, 98 S. Ct. 2187, 2194, 57 L. Ed. 2d 65, 75 (1978), as
if “there has been no trial,” State v. Tyson, 138 N.C.
627, 629, 50 S.E. 456, 456 (1905). Thereafter,
defendant was properly re-indicted and retried,
resulting in the jury convicting defendant of murder;
that conviction is now judicially erased. Allowing the
State to take a pretrial dismissal after a mistrial and
subsequently to retry defendant does not offend the
safeguard against double jeopardy. I respectfully
dissent.
I. Facts and Procedural History
In 2009 the State charged defendant with the firstdegree murder of James Deberry based in part on
Deberry’s dying statement after being shot. On 6
December 2010, defendant’s trial began. Three days
later, the trial court declared a mistrial after the jury
was unable to reach a verdict. On 16 December 2010,
the trial court issued a judgment form noting
“Mistrial Con’t to next Status Hearing for State to
decide if case to be retried.”
On 14 April 2011, the State dismissed the murder
charge against defendant by filing the standard Form
AOC-CR-307 in accordance with N.C.G.S. § 15A-931,
circling “Dismissal” in handwriting, rather than
“Notice of Reinstatement,” on the form. The form has
no checkbox to indicate a mistrial, and the State

33a
selected the fourth checkbox option “Other: (specify),”
and specified below “hung jury, State has elected not
to re-try case.” The State noted that, in the mistrial,
“A jury has not been impaneled nor and has [sic]
evidence been introduced.” Notably, the State did not
check any box on the form that could signify a finding
of defendant’s guilt or innocence despite having these
checkbox options: “No crime is charged”; “insufficient
evidence to warrant prosecution”; and defendant
“agreed to plead guilty.”
The State obtained more evidence linking
defendant to Deberry’s death and, on 6 July 2015, a
grand jury issued a new indictment against defendant
for first-degree murder. Before his second trial,
defendant unsuccessfully moved to dismiss the new
indictment on double jeopardy grounds. On 7
November 2018, the jury convicted defendant of
second-degree murder.
On appeal defendant conceded, and the majority
agrees, that the State could retry him on the mistried
murder charge without transgressing double jeopardy
protections. The Court of Appeals held, and now a
majority of this Court holds, that the prosecutor’s
post-mistrial voluntary dismissal of the original
murder
indictment
possessed
“the
same
constitutional finality and conclusiveness as an
acquittal.” State v. Courtney, 817 S.E.2d 412, 414
(2018). Thus, defendant’s second trial put him in
jeopardy twice for the same charge in violation of the
principles of double jeopardy.
In affirming the Court of Appeals, the majority
holds

34a
that when the State enters a voluntary
dismissal under N.C.G.S. § 15A-931 after
jeopardy has attached, jeopardy is terminated
in the defendant’s favor, regardless of the
reason the State gives for entering the
dismissal. The State cannot then retry the
case without violating a defendant’s right to
be free from double jeopardy. When the State
dismisses a charge under section 15A-931
after jeopardy has attached, jeopardy
terminates.
In its view, once jeopardy attaches with the
empaneling of the first jury, jeopardy infects each
aspect of the proceeding thereafter, even after a
mistrial. Thus, the majority “hold[s] that where, as
here, the State dismisses a charge under section 15A931 after jeopardy has attached, a defendant’s right
to be free from double jeopardy under the federal and
state constitutions is violated if the State initiates a
subsequent prosecution on the same charge.” Of note,
its analysis would also apply to cases reversed on
appeal. The majority attempts to support this position
by misapplying precedent from the Supreme Court of
the United States and this Court.
The majority’s hyper-technical application of the
“continuing jeopardy” theory is flawed because it does
not ask the correct fundamental question: After a
mistrial, are the parties returned to the same position
procedurally as before the original trial? If so, there is
a procedural pretrial period during which the State
can take a voluntary dismissal. At this stage, no jury
is currently empaneled; various pretrial proceedings
must occur. Precedent from the Supreme Court of the

35a
United States and this Court indicates that, after a
mistrial, the proceeding returns to a pretrial status.
Thus, a dismissal following a mistrial and before a
new jury is empaneled is a pretrial dismissal which is
not akin to an acquittal.
The majority’s approach confuses defendant with
“an acquitted defendant [who] may not be retried”
regardless of the reason for the acquittal. Arizona v.
Washington, 434 U.S. 497, 503, 98 S. Ct. 824, 829, 54
L. Ed. 2d 717, 726 (1978) (emphasis added).
Defendant’s first trial ended with a hung jury,
resulting in a mistrial. A hung jury is not an acquittal,
United States v. Perez, 22 U.S. (9 Wheat.) 579, 580, 6
L. Ed. 165, 165 (1824), nor is a pretrial dismissal an
acquittal. Retrying defendant on a new indictment
does not violate the prohibition against double
jeopardy.
II. Governing Principles of Double Jeopardy
The Fifth Amendment of the United States
Constitution contains a guarantee that no person
shall “be subject for the same offence to be twice put
in jeopardy of life or limb . . . .” U.S. Const. amend. V;
see also Benton v. Maryland, 395 U.S. 784, 794–96, 89
S. Ct. 2056, 2062–63, 23 L. Ed. 2d 707, 716–17 (1969)
(incorporating the Double Jeopardy Clause to the
States by the Fourteenth Amendment and noting its
“fundamental nature” rooted in the English common
law and dating back to the Greeks and Romans); State
v. Brunson, 327 N.C. 244, 247, 393 S.E.2d 860, 863
(1990) (recognizing the law of the land clause of the
North Carolina Constitution as affording the same

36a
protections as the Double Jeopardy Clause of the
federal constitution).
“Our double jeopardy case law is complex, but at
its core, the Clause means that those acquitted or
convicted of a particular ‘offence’ cannot be tried a
second time for the same ‘offence.’ ” Gamble v. United
States, 139 S. Ct. 1960, 1964, 204 L.Ed.2d 322 (2019)
(quoting U.S. Const. amend. V); see id. at 1966–67
(discussing the “abstract principle” that double
jeopardy allows two punishments for “[a] single act”
under the political theory of dual sovereignty); see
also Green v. United States, 355 U.S. 184, 186–87, 78
S. Ct. 221, 223, 2 L. Ed. 2d 199, 204 (1957)
(recognizing “former” or “double jeopardy” as
“designed to protect an individual from being
subjected to the hazards of trial and possible
conviction more than once for an alleged offense”
(citing 4 William Blackstone, Commentaries *335)).
The underlying idea, one that is deeply
ingrained in at least the Anglo-American
system of jurisprudence, is that the State with
all its resources and power should not be
allowed to make repeated attempts to convict
an individual for an alleged offense, thereby
subjecting him to embarrassment, expense
and ordeal and compelling him to live in a
continuing state of anxiety and insecurity, as
well as enhancing the possibility that even
though innocent he may be found guilty.
Id. at 187–88, 78 S. Ct. at 223, 2 L. Ed. 2d at 204.
Further, double jeopardy principles work “to preserve

37a
the finality of judgments.” Crist v. Bretz, 437 U.S. 28,
33, 98 S. Ct. 2156, 2159, 57 L. Ed. 2d 24, 30 (1978).
“[A] defendant is placed in jeopardy in a criminal
proceeding once the defendant is put to trial before
the trier of the facts, whether the trier be a jury or a
judge.” United States v. Jorn, 400 U.S. 470, 479, 91 S.
Ct. 547, 554, 27 L. Ed. 2d 543, 553 (1971). Thus,
jeopardy generally attaches “when the jury is
empaneled and sworn.” Crist, 437 U.S. at 35, 98 S. Ct.
at 2161, 57 L. Ed. 2d at 553. “Without risk of a
determination of guilt, jeopardy does not attach, and
neither an appeal nor further prosecution constitutes
double jeopardy.” Serfass v. United States, 420 U.S.
377, 391–92, 95 S. Ct. 1055, 1064, 43 L. Ed. 2d 265,
276 (1975). Thus, “once a defendant is placed in
jeopardy for an offense, and jeopardy terminates with
respect to that offense, the defendant may neither be
tried nor punished a second time for the same
offense.” Sattazahn v. Pennsylvania, 537 U.S. 101,
106, 123 S. Ct. 732, 736, 154 L. Ed. 2d 588, 595 (2003).
Hence, an acquittal is final even if obtained
erroneously. See Green, 355 U.S. at 188, 192, 78 S. Ct.
at 223–24, 226, 2 L. Ed. 2d at 204, 207. Even so, “an
‘acquittal’ cannot be divorced from the procedural
context”; it has “no significance . . . unless jeopardy
has once attached and an accused has been subjected
to the risk of conviction.” Serfass, 420 U.S. at 392, 95
S. Ct. at 1065, 43 L. Ed. 2d at 276. An acquittal, by its
very definition, requires some finding of innocence
and “actually represents a resolution, correct or not,
of some or all of the factual elements of the offense
charged.” United States v. Martin Linen Supply Co.,
430 U.S. 564, 571, 97 S. Ct. 1349, 1355, 51 L. Ed. 2d

38a
642, 651 (1977). Therefore, jeopardy will always
terminate following a defendant’s acquittal,
regardless of whether the acquittal originated from a
jury or judge. See Evans v. Michigan, 568 U.S. 313,
328–29, 133 S. Ct. 1069, 1080–81, 185 L. Ed. 2d 124,
140 (2013).
Generally, a conviction or guilty plea likewise
brings finality if it represents the final judgment
“with respect to the guilt or innocence of the
defendant.” Burks v. United States, 437 U.S. 1, 15, 98
S. Ct. 2141, 2149, 57 L. Ed. 2d 1, 12 (1978). The State
cannot retry a convicted defendant in pursuit of
harsher punishment. See Green, 355 U.S. at 190–91,
78 S. Ct. at 225–226, 2 L. Ed. 2d at 205–06 (discussing
when the State is precluded from retrying on a
greater offense). For the same reason, double jeopardy
principles operate to defeat prosecutorial efforts to
dismiss a case midtrial in hope of procuring a more
favorable jury. Once jeopardy attaches in a trial, if the
jury is wrongfully discharged without defendant’s
consent, he cannot be tried again with a different jury
on the same charges. Id. at 188, 78 S. Ct. at 224, 2 L.
Ed. 2d at 204 (“This prevents a prosecutor or judge
from subjecting a defendant to a second prosecution
by discontinuing the trial when it appears that the
jury might not convict.”); see also Gori v. United
States, 367 U.S. 364, 369, 81 S. Ct. 1523, 1526–27, 6
L. Ed. 2d 901, 905 (1961).
Nonetheless, the law provides certain exceptions
to the strict application of the bare text of the Fifth
Amendment. For example, the protection against
double jeopardy “does not bar reprosecution of a
defendant whose conviction is overturned on appeal.”

39a
Justices of Bos. Mun. Court v. Lydon, 466 U.S. 294,
308, 104 S. Ct. 1805, 1813, 80 L. Ed. 2d 311, 324
(1984). Some cases discussing this principle rely on
the theory of “continuing jeopardy” to justify imposing
a new trial following a defendant’s successful appeal.
See, e.g., id. at 309, 312, 104 S. Ct. at 1814, 1815, 80
L. Ed. 2d at 325, 327 (opining that jeopardy stays on
a single and continuous course throughout the
judicial proceedings and thus a new trial offers more
protection to the defendant because he has two
opportunities to secure an acquittal); Green, 355 U.S.
at 189–193, 78 S. Ct. at 224–27, 2 L. Ed. 2d at 205–08
(offering continuing jeopardy as one “rationalization”
to justify a new trial following a successful appeal).
Similarly, “[w]hen a trial court declares a mistrial,
it all but invariably contemplates that the prosecutor
will be permitted to proceed anew notwithstanding
the defendant’s plea of double jeopardy.” Scott, 437
U.S. at 92, 98 S. Ct. at 2194, 57 L. Ed. 2d at 75. To
“proceed anew” after a properly declared mistrial
means a fresh start with a complete, new trial, having
all the procedural stages as the original one. Thus,
whether after an appeal or a mistrial, double jeopardy
protection is not implicated by a complete, new trial.
III. Unique Nature of Mistrials
“[W]ithout exception, the courts [in this country]
have held that the trial judge may discharge a
genuinely deadlocked jury and require the defendant
to submit to a second trial. This rule accords
recognition to society’s interest in giving the
prosecution one complete opportunity to convict those

40a
who have violated its laws.” Arizona, 434 U.S. at 509,
98 S. Ct. at 832, 54 L. Ed. 2d at 730.
The double-jeopardy provision of the Fifth
Amendment . . . does not mean that every
time a defendant is put to trial before a
competent tribunal he is entitled to go free if
the trial fails to end in a final judgment. Such
a rule would create an insuperable obstacle to
the administration of justice in many cases in
which there is no semblance of the type of
oppressive practices at which the doublejeopardy prohibition is aimed. There may be
unforeseeable circumstances that arise
during a trial making its completion
impossible, such as the failure of a jury to
agree on a verdict. In such event the purpose
of law to protect society from those guilty of
crimes frequently would be frustrated by
denying courts power to put the defendant to
trial again. . . . It is settled that the duty of
the judge in this event is to discharge the jury
and direct a retrial.
Wade v. Hunter, 336 U.S. 684, 688–89, 69 S. Ct. 834,
837, 93 L. Ed. 974, 978 (emphasis added), reh’g
denied, 337 U.S. 921, 69 S. Ct. 1152, 93 L. Ed. 1730
(1949). Seemingly contrary to the general rules
governing double jeopardy, the jeopardy from the first
trial is not regarded to have attached, continued, or
ended in a way that can preclude a second trial. See
id. at 688–89, 69 S. Ct. at 837, 93 L. Ed. at 978. A
mistried defendant’s “valued right to have his trial
completed by a particular tribunal must . . . be
subordinated to the public’s interest in fair trials

41a
designed to end in just judgments.” Id. at 689, 69 S.
Ct. at 837, 93 L. Ed. at 978. Defendant is entitled to a
fair trial, and the State is entitled to a fair
opportunity to prosecute the crime; both defendant
and the State are entitled to a jury verdict on the
charges. See Arizona, 434 U.S. at 509, 98 S. Ct. at 832,
54 L. Ed. 2d at 730.
The Supreme Court of the United States first set
out the general rule regarding mistrials in United
States v. Perez by considering “whether the discharge
of the jury by the Court from giving any verdict upon
the indictment, with which they were charged,
without the consent of the prisoner, is a bar to any
future trial for the same offence.” Perez, 22 U.S. at
579, 6 L. Ed. at 578. The Court concluded that “the
law has invested Courts of justice with the authority
to discharge a jury from giving any verdict, whenever,
in their opinion, taking all the circumstances into
consideration, there is a manifest necessity for the
act, or the ends of public justice would otherwise be
defeated.” Id. at 580, 6 L. Ed. at 578 (contemplating
the sound discretion by the trial court in declaring a
mistrial). Under circumstances of manifest necessity,
“a discharge [of the jury] constitutes no bar to further
proceedings, and gives no right of exemption to the
prisoner from being again put upon trial.” Id. at 580,
6 L. Ed. at 579–80.
In United States v. Sanford, the Court confirmed
that “[t]he Government’s right to retry the defendant,
after a mistrial, in the face of his claim of double
jeopardy is generally governed by the test laid down
in Perez . . . .” 429 U.S. 14, 16, 97 S. Ct. 20, 21, 50 L.
Ed. 2d 17, 20 (1976) (footnote omitted). In that case

42a
the respondents successfully moved to dismiss the
indictment post-mistrial but before the new trial had
begun. Id. at 14–15, 97 S. Ct. at 20–21, 50 L. Ed. 2d
at 19. On appeal the Court agreed “that jeopardy
attached at the time of the empaneling of the jury for
the first trial,” but disagreed that the procedural
“sequence of events in the District Court” presented a
bar from retrying respondents under the Double
Jeopardy Clause. Id. at 15, 97 S. Ct. at 21, 50 L. Ed.
2d at 19.
The Court determined that “the indictment
terminated, not in [respondent’s] favor, but in a
mistrial declared, sua sponte, by the District Court.”
Id. at 15, 97 S. Ct. at 21, 50 L. Ed. 2d at 19. “Where
the trial is terminated in this manner,” Perez provides
“the classical test for determining whether the
defendants may be retried without violating the
Double Jeopardy Clause.” Id. at 15, 97 S. Ct. at 21, 50
L. Ed. 2d at 19–20. Reviewing respondent’s postmistrial motion to dismiss, the Court concluded: “The
situation of a hung jury presented here is precisely
the situation that was presented in Perez, and
therefore the Double Jeopardy Clause does not bar
retrial of these respondents on the indictment which
had been returned against them.” Id. at 16, 97 S. Ct.
at 21, 50 L. Ed. 2d at 20 (citation omitted).
The Court compared the procedural posture of
Sanford to its then-recent case Serfass v. United
States. Sanford, 429 U.S. at 16, 97 S. Ct. at 21–22, 50
L. Ed. 2d at 20. Serfass involved a pretrial motion to
dismiss an indictment outside the context of a
mistrial; thus, the Court indicated the procedure after
a mistrial was to begin afresh, including a pretrial

43a
period. Serfass, 420 U.S. at 379–81, 387–93, 95 S. Ct.
at 1058–59, 1062–65, 43 L. Ed. 2d at 268–70, 273–77.
In Serfass the Court held that a pretrial order
dismissing an indictment did not affect the
government’s right to reprosecute the petitioner
because there was no determination of guilt or
innocence by the fact-finder. Id. at 389, 95 S. Ct. at
1063, 43 L. Ed. 2d at 274. Because the motion was
pretrial, “[a]t no time during or following the hearing
on petitioner’s motion to dismiss the indictment did
the District Court have jurisdiction to do more than
grant or deny that motion, and neither before nor
after the ruling did jeopardy attach.” Id. at 389, 95 S.
Ct. at 1063, 43 L. Ed. 2d at 275. The Court also
rejected the petitioner’s assertion that dismissing the
indictment, even if the trial court based its decision
on facts that would constitute a defense at trial, was
the functional equivalent of an acquittal. Id. at 390,
95 S. Ct. at 1063–64, 43 L. Ed. 2d at 275.
By analogizing the post-mistrial motion to dismiss
an indictment in Sanford to the pretrial motion to
dismiss the indictment in Serfass, the Court signifies
the procedural similarities between those cases; both
involved a dismissal during a pretrial stage. Retrial
does not offend the protections afforded by the Double
Jeopardy Clause. Thus, applying Sanford and
Serfass, if a mistrial terminates the criminal
proceeding, intervening motions between mistrial
and the beginning of a defendant’s second trial do not
trigger double jeopardy protections. This principle is
illustrated by this Court’s long-stated view that
“[w]hen a mistrial has been declared properly, ‘in
legal contemplation there has been no trial.’ ” State v.
Sanders, 347 N.C. 587, 599, 496 S.E.2d 568, 576

44a
(1998) (quoting Tyson, 138 N.C. at 629, 50 S.E. at
456).1
Federal circuit courts have reached the same conclusion.
See, e.g., Chatfield v. Ricketts, 673 F.2d 330, 332 (10th Cir.) (“The
Sanford court obviously concluded that since the government
has a right to retry the defendant following a mistrial because of
a hung jury, the period following the mistrial is a pretrial period.
During the pretrial period, a prosecutor may dismiss charges,
and the Double Jeopardy Clause does not prohibit the prosecutor
from reasserting the same charges at a later date.”), cert. denied,
459 U.S. 843, 103 S. Ct. 96, 74 L. Ed. 2d 88 (1982); Arnold v.
McCarthy, 566 F.2d 1377, 1388 (9th Cir. 1978) (“Once a mistrial
had been fairly ordered the situation became analogous to the
pretrial period in which the prosecutor has undisputed authority
to dismiss charges without fear of being prohibited from
reasserting them by the Fifth Amendment. Subsequent to the
declaration of a mistrial for reasons which satisfy the ‘manifest
necessity’ standards of the Double Jeopardy Clause, the state
can dismiss criminal charges without forfeiting the right to retry
them.”); Dortch v. United States, 203 F.2d 709, 710 (6th Cir.) (per
curiam) (The sequence of a mistrial, “a nolle prosequi[,] and a
dismissal without prejudice do[es] not bar a second prosecution
for the same offense, inasmuch as such terminations are not
tantamount to acquittal.”), cert. denied, 346 U.S. 814, 74 S. Ct.
25, 98 L. Ed. 342 (1953); Lynch v. United States, 189 F.2d 476,
478–79 (5th Cir.) (“When the mistrial was declared, the
Government was at liberty to try the appellants again on the
same indictment or to obtain a new indictment. A mistrial in a
case is no bar to a subsequent trial of defendants.”), cert. denied,
342 U.S. 831, 72 S. Ct. 50, 96 L. Ed. 629 (1951).
1

State courts have reached the same conclusion. See, e.g.,
Duncan v. State, 939 So. 2d 772, 774–77 (Miss. 2006) (allowing
re-indictment following mistrial due to hung jury on original
indictment and the prosecutor’s nolle prosequi of original
indictment despite double jeopardy claim); Casillas v. State, 267
Ga. 541, 542, 480 S.E.2d 571, 572 (1997) (“[A] properly granted
mistrial removes the case from the jury and a nolle prosequi
entered thereafter, even without the consent of the defendant,
does not have the effect of an acquittal. Since the nolle prosequi
of the original indictment of Casillas was entered only after the

45a

mistrial was declared, he was not acquitted of any crimes
charged in that original indictment and there is no bar to his
retrial for the crimes charged in the new indictment.” (citations
omitted)); State v. Gaskins, 263 S.C. 343, 347, 210 S.E.2d 590,
592 (1974) (“If, after a mistrial has been duly ordered, the
prosecuting officer enters a nolle prosequi, such will not be a bar
to a subsequent prosecution for the same offense. . . . [as it]
would not adjudicate either the innocence or the guilt of the
respondent and would be no bar to his future prosecution for the
same offense.”(citations omitted)); id. (recognizing the differing
effects of a pretrial dismissal following a mistrial and a midtrial
dismissal that may occur during the second trial); In re Weir, 342
Mich. 96, 99, 69 N.W.2d 206, 208 (1955) (“The dismissal of the
former prosecution . . . following disagreement of the jury is not
to be considered as an acquittal either on the facts or on the
merits.” (citing, inter alia, People v. Pline, 61 Mich. 247, 28 N.W.
83 (1886))); Smith v. State, 135 Fla. 835, 839, 186 So. 203, 205
(1939) (“It is well settled in this state that a mistrial by reason
of the inability of the jury to agree does not constitute former
jeopardy. Nor is the entry of a nolle prosequi a bar to another
information for the same offense. After the mistrial the case
stood as if it had never been tried, and a nolle prosequi entered
then had no different effect in favor of the defendant than if it
had been entered prior to the trial.” (citations omitted)); Pline,
61 Mich. at 251, 28 N.W. at 84 (concluding that the sequence of
a mistrial, a subsequent nolle prosequi, followed by a new trial
does not offend the defendant’s right against double jeopardy).
Courts have applied the same principle following a reversal
on appeal. See, e.g., C.K. v. State, 145 Ohio St. 3d 322, 325, 49
N.E.3d 1218, 1221–22 (2015) (“[T]he dismissal of an indictment
without prejudice on remand from a reversal does not bar future
prosecution of the accused.”); United States v. Davis, 873 F.2d
900, 903 (6th Cir.) (“In the leading case of United States v. Ball,
163 U.S. 662, 16 S. Ct. 1192, 41 L. Ed. 300 (1896), the Supreme
Court held that a defendant who succeeded in having his murder
conviction set aside because of a legal defect in the indictment
was not ‘twice put in jeopardy,’ in violation of the Constitution,
when retried on a new and legally sufficient indictment.”), cert.
denied, 493 U.S. 923, 110 S. Ct. 292, 107 L. Ed. 2d 271 (1989).

46a
Like the trial court in Sanford, the majority here
confuses the theory of jeopardy with the procedural
“sequence of events.” See Sanford, 429 U.S. at 15, 97
S. Ct. at 21, 50 L. Ed. 2d at 19. The procedural posture
of Sanford determined the effect of the dismissal.
Because the case after mistrial was in its pretrial
stage, the dismissal was not a terminating event.
The majority seeks to minimize the holding of
Sanford, saying that Richardson v. United States, 468
U.S. 317, 104 S. Ct. 3081, 82 L. Ed. 2d 242 (1984),
somehow limits Sanford and, without analysis, that a
motion to dismiss by a defendant is qualitatively
different than a dismissal by the State. Under its
misapplication of the “continuing jeopardy” theory,
however, jeopardy would infect all aspects of the
proceeding. Regardless of which party makes the
motion, the granting of a motion to dismiss after
jeopardy attached in the first trial would be a
terminating event. The correct question asks at what
trial stage was the motion made or the dismissal was
taken, not the identity of the party that initiated it.
IV. Continuing Jeopardy
While the majority’s misapplication of the
“continuing jeopardy theory” causes it to miss the
fundamental question regarding the procedural
posture of this case, a discussion of the development
of the theory is helpful. Similar to granting a new trial
after appeal, courts have put forward different legal
theories that justify a second trial following a
mistrial, but the theories result in the same
conclusion: The State may proceed with a complete,
new trial following a mistrial.

47a
The majority relies heavily on Richardson to
justify its outcome here. In that case the jury
acquitted Richardson of some but not all federal
narcotics charges brought against him, resulting in a
hung jury on those remaining charges and a declared
mistrial. Richardson, 468 U.S. at 318–19, 104 S. Ct.
at 3082–83, 82 L. Ed. 2d at 246–47. The trial court
scheduled defendant’s new trial. Id. at 318, 104 S. Ct.
at 3082, 82 L. Ed. 2d at 246. Richardson moved to bar
the retrial, arguing that “if the Government failed to
introduce sufficient evidence to establish his guilt
beyond a reasonable doubt at his first trial [on the
acquitted charges], he may not be tried again
following a declaration of a mistrial because of a hung
jury.” Id. at 322–23, 104 S. Ct. at 3084, 82 L. Ed. 2d
at 249.
The Court in Richardson recognized that “[t]he
case law dealing with the application of the
prohibition against placing a defendant twice in
jeopardy following a mistrial because of a hung jury
has its own sources and logic.” Id. at 323, 104 S. Ct.
at 3085, 82 L. Ed. 2d at 249–50. Citing “this settled
line of cases,” it reaffirmed that “a failure of the jury
to agree on a verdict was an instance of ‘manifest
necessity’ which permitted a trial judge to terminate
the first trial and retry the defendant, because ‘the
ends of public justice would otherwise be defeated.’ ”
Id. at 323–24, 104 S. Ct. at 3085, 82 L. Ed. 2d at 250
(quoting Perez, 22 U.S. at 580, 6 L. Ed. at 165).
The Court emphasized Richardson’s situation
involved a mistrial and distinguished it from the
outcome of Burks v. United States, a nonmistrial case.
Id. at 325–26, 104 S. Ct. at 3086, 82 L. Ed. 2d at 250–

48a
51 (citing Burks v. United States, 437 U.S. 1, 98 S. Ct.
2141, 57 L. Ed. 2d 1 (1978)). The Court introduced this
discussion by refusing “to uproot this settled line of
cases by extending the reasoning of Burks, which
arose out of an appellate finding of insufficiency of
evidence to convict following a jury verdict of guilty,
to a situation where the jury is unable to agree on a
verdict.” Id. at 324, 104 S. Ct. at 3085, 82 L. Ed. 2d at
250. The Court then summarized its holding in Burks
as equating “an appellate court’s finding of
insufficient evidence to convict on appeal from a
judgment of conviction” as an acquittal “for double
jeopardy purposes.” Id. at 325, 104 S. Ct. at 3086, 82
L. Ed. 2d at 251. Burks “obviously did not establish,
consistently with cases such as Perez, that a hung jury
is the equivalent of an acquittal.” Id. at 325, 104 S. Ct.
at 3086, 82 L. Ed. 2d at 251.
In distinguishing Richardson’s situation from that
of a defendant in a nonmistrial case, the Court
recognized that mistrials present unique exceptions
that terminate a criminal proceeding in a way that
permits retrial without giving rise to a double
jeopardy claim. See id. at 325, 104 S. Ct. at 3086, 82
L. Ed. 2d at 251 (“[T]he failure of the jury to reach a
verdict is not an event which terminates jeopardy.”).
The concurring opinion in Richardson calls this
“continuing jeopardy” theory “a formalistic concept”
unnecessary to justifying the general policy behind
retrying mistrials. Id. at 327, 329, 104 S. Ct. at 3087,
3088, 82 L. Ed. 2d at 252, 254 (Brennan, J.,
concurring in part and dissenting in part) (“[S]trong
policy reasons may justify subjecting a defendant to
two trials in certain circumstances notwithstanding
the literal language of the Double Jeopardy Clause”

49a
and without “seek[ing] to justify such a retrial by
pretending that it was not really a new trial at all but
was instead simply a ‘continuation’ of the original
proceeding.” (quoting Lydon, 466 U.S. at 321, 104 S.
Ct. at 1820, 80 L. Ed. 2d at 333 (Brennan, J.,
concurring in part and concurring in judgment))).
As demonstrated by Richardson, mistrials
presuppose a future prosecution. See id. at 326, 104 S.
Ct. at 3086, 82 L. Ed. 2d at 251 (majority opinion)
(“The Government, like the defendant, is entitled to
resolution of the case by verdict from the jury, and
jeopardy does not terminate when the jury is
discharged because it is unable to agree.”). Tellingly,
in Richardson both the majority opinion’s theory and
the concurring opinion’s theory result in the same
general rule that the State may retry a defendant
following a mistrial.
The Supreme Court of the United States “ha[s]
constantly adhered to the rule that a retrial following
a ‘hung jury’ does not violate the Double Jeopardy
Clause.” Id. at 323–24, 104 S. Ct. at 3085, 82 L. Ed.
2d at 250 (A hung jury “permit[s] a trial judge to
terminate the first trial and retry the defendant,
because ‘the ends of public justice would otherwise be
defeated.’ ” (quoting Perez, 22 U.S. at 580, 6 L. Ed. at
165)). Here the majority now uses Richardson’s
“continuing jeopardy” justification that allows a new
trial following a mistrial to prevent a new trial, by
holding that the prosecutor’s pretrial dismissal was a
“terminating event” to the jeopardy that had attached
at the original trial. Regardless of the legal theory
posited to justify a new trial following a mistrial, that
same theory cannot then be used to prohibit the same.

50a
In a case with facts similar to the instant case, the
Supreme Court of Mississippi applied the general
principles of double jeopardy under the continuing
jeopardy theory in the context of two previous
mistrials for the same defendant. Beckwith v. State,
615 So. 2d 1134, 1135–36 (Miss. 1992), cert. denied,
510 U.S. 884, 114 S. Ct. 232, 126 L. Ed. 2d 187 (1993).
Beckwith was indicted and tried twice for the murder
of civil rights activist Medgar Evers, resulting in hung
juries and mistrials. Id. at 1135. In 1969, five years
after his second mistrial, the prosecutor entered a
nolle prosequi, noticing his intent not to prosecute
further. Id. In 1990, twenty-six years after the last
mistrial, the State again indicted Beckwith for
murder. Id. On interlocutory appeal, Beckwith
claimed another trial would violate his constitutional
right against double jeopardy. Id. at 1136.
Applying federal precedent and Mississippi law,
that court first recognized that “[d]efendants may be
repeatedly retried . . . following mistrials granted
because the jury was deadlocked and could not reach
a unanimous verdict.” Id. at 1147. The court further
determined the nolle prosequi was akin to “ ‘retiring’
or ‘passing’ an indictment to the files [and] [wa]s not
an acquittal barring further prosecution, following
which the case may be reopened upon motion of the
State”; it “did not terminate the original jeopardy, and
the State was not barred thereafter from seeking the
re-indictment of and re-prosecuting the defendant
from the same offense.” Id. The court continued, “If,
following a mistrial declared in such an instance, the
State does what it considers manifestly fair, and
moves to dismiss the case, it would be shockingly
wrong to hold that it could never have the case re-

51a
opened upon discovery of additional evidence.” Id. at
1148. Therefore, “the entry of the nolle prosequi in
1969 did not terminate Beckwith’s original jeopardy
or accrue unto him the right not to be re-indicted and
re-prosecuted for the same offense.” Id.
V. Effect of the Voluntary Dismissal
A voluntary dismissal during a pretrial phase
following a mistrial is not the equivalent of an
acquittal and cannot prevent a retrial. A prosecutor
may take “a simple and final dismissal which
terminates the criminal proceedings under that
indictment” at any time. State v. Lamb, 321 N.C. 633,
641, 365 S.E.2d 600, 604 (1988) (citing N.C.G.S. §
15A-931 (1983)). A dismissal at a pretrial stage does
not prevent re-indictment and retrial. Of note, there
is no statute of limitations applicable to murder in
North Carolina, nor does dismissal and re-indictment
implicate speedy trial concerns. See State v. Johnson,
275 N.C. 264, 271, 167 S.E.2d 274, 279 (1969).
The standard dismissal form used by the
prosecutor here does not contemplate proceedings
after a mistrial (or reversal on appeal). The form lists
the sections of the General Statutes to which it
corresponds, including, at issue here, section 15A-931
governing general dismissals, 2 which provides in
pertinent part:
The form includes additional statute cites. See N.C.G.S. §
15A-302(e) (2017) (“Dismissal by Prosecutor. — If the prosecutor
finds that no crime or infraction is charged in the citation, or that
there is insufficient evidence to warrant prosecution, he may
dismiss the charge and so notify the person cited. An appropriate
entry must be made in the records of the clerk. It is not necessary
to enter the dismissal in open court or to obtain consent of the
2

52a
(a) . . . [T]he prosecutor may dismiss any
charges stated in a criminal pleading
including those deferred for prosecution by
entering an oral dismissal in open court
before or during the trial, or by filing a written
dismissal with the clerk at any time. The
clerk must record the dismissal entered by the
prosecutor and note in the case file whether a
jury has been impaneled or evidence has been
introduced.
(a1) Unless the defendant or the defendant’s
attorney has been notified otherwise by the
prosecutor, a written dismissal of the charges
against the defendant filed by the prosecutor
shall be served in the same manner
prescribed for motions under G.S. 15A-951. In
addition, the written dismissal shall also be
served on the chief officer of the custodial
facility when the record reflects that the
defendant is in custody.
N.C.G.S. § 15A-931(a) to (a1) (2017). A dismissal
under N.C.G.S. § 15A-931 terminates the criminal
proceedings under that indictment. Id. § 15A-931
official cmt. (2017). It does not prohibit indicting the
same defendant later on the same charges, see id., but
judge.”); N.C.G.S. § 15A-932(b) (2017) (captioned “Dismissal
with leave when defendant fails to appear and cannot be readily
found or pursuant to a deferred prosecution agreement” that
“results in removal of the case from the docket of the court, but
all process outstanding retains its validity . . . ”).
A dismissal under sections 15A-931 and 15A-932 “results in
termination or indeterminate suspension of the prosecution of a
criminal charge.” N.C.G.S. § 15A-1381(6) (2017).

53a
a new indictment is necessary to do so, see Lamb, 321
N.C. at 635, 641, 365 S.E.2d at 601, 604 (reviewing a
pretrial dismissal for an apparent lack of evidence
under N.C.G.S. § 15A-931 that did not preclude later
re-indictment on the same charges). In contrast,
“[s]ection 15A-932 provides for a dismissal ‘with leave’
” that removes “the case from the court’s docket, but
the criminal proceeding under the indictment is not
terminated. All outstanding process retains its
validity and the prosecutor may reinstitute the
proceedings by filing written notice with the clerk
without the necessity of a new indictment.” Id. at 641,
365 S.E.2d at 604 (citing N.C.G.S. § 15A-932 (1983)).
A proper dismissal under N.C.G.S. § 15A-931
prevents a claim of a speedy trial violation, id.,
whereas an indefinite continuance may give rise to
one.
The dismissal statutes were enacted in response to
an opinion issued by the Supreme Court of United
States, Klopfer v. North Carolina, to provide “a simple
and final dismissal.” See N.C.G.S. § 15A-931 official
cmt. (citing Klopfer v. North Carolina, 386 U.S. 213,
87 S. Ct. 988, 18 L. Ed. 2d 1 (1967)). In that case the
Supreme Court of the United States invalidated a
North Carolina procedure, referred to as the “nolle
prosequi with leave,” because it violated Klopfer’s
right to a speedy trial. Klopfer, 386 U.S. at 222, 87 S.
Ct. at 993, 18 L. Ed. 2d at 7. Klopfer was indicted for
misdemeanor criminal trespassing in January 1964,
and his trial ended in a mistrial in March 1964. Id. at
217, 87 S. Ct. at 990, 18 L. Ed. 2d at 4–5. The trial
court initially continued the case for another term in
April 1965 before the State took a “nolle prosequi with

54a
leave” eighteen months after the indictment. Id. at
217–18, 87 S. Ct. at 990–91, 18 L. Ed. 2d at 5.
In effect the nolle prosequi with leave allowed the
indictment to remain pending for an indeterminate
time period, indefinitely postponing prosecution while
at the same allowing the case to be docketed on the
court’s calendar at any time. Id. at 214, 87 S. Ct. at
984, 18 L. Ed. 2d at 3. In the meantime, Klopfer could
not obtain a dismissal of the charge or demand the
case be set for trial. Id. at 216, 87 S. Ct. at 990, 18 L.
Ed. 2d at 4. The Court concluded:
The pendency of the indictment may subject
him to public scorn and deprive him of
employment, and almost certainly will force
curtailment of his speech, associations and
participation in unpopular causes. By
indefinitely prolonging this oppression, as
well as the “anxiety and concern
accompanying
public
accusation,”
the
criminal procedure condoned in this case by
the Supreme Court of North Carolina clearly
denies the petitioner the right to a speedy
trial which we hold is guaranteed to him by
the Sixth Amendment of the Constitution of
the United States.
Id. at 222, 87 S. Ct. at 993, 18 L. Ed. 2d at 7 (footnote
omitted) (quoting United States v. Ewell, 383 U.S.
116, 120, 86 S. Ct. 773, 776, 15 L. Ed. 2d 627, 630
(1966)). Notably, Klopfer’s victory meant he “was
entitled to be tried in accordance with the protection
of the confrontation guarantee of the Sixth
Amendment” following his mistrial, rather than a

55a
substantive dismissal of the charges. Id. at 222, 87 S.
Ct. at 993, 18 L. Ed. 2d at 7–8 (quoting Pointer v.
Texas, 380 U.S. 400, 406, 85 S. Ct. 1065, 1069, 13 L.
Ed. 2d 923, 928 (1965)).
Nonetheless, the majority declares that the section
15A-931 dismissal here provides a newfound
“terminating event” that now bars retrial following a
mistrial. Under the majority’s reasoning, because
jeopardy attached in defendant’s original mistrial, the
State’s dismissal following the mistrial occurred
during “jeopardy” and thus is treated as a midtrial
dismissal. The majority overlooks the mistrial
principle that the “jeopardy” of the mistrial does not
preclude a retrial. The initial jury was discharged,
and a new trial must take place to put defendant at
risk of conviction. Before the new trial began, during
the new pretrial phase, the State could dismiss the
pending indictment without being prohibited from reindicting and retrying defendant.
The statute clearly governs voluntary dismissals
at trials generally and does not, on its face, even
address the unique circumstances involved in a
mistrial. Moreover, the form associated with the
statute does not specifically include nor contemplate
the procedure following a mistrial. The State signified
defendant’s first trial terminated with a hung jury by
handwriting and without suggesting any substantive
or conclusive finding on defendant’s guilt or
innocence. The dismissal here is not substantive; it
does not speak to defendant’s guilt or innocence and
cannot be equated to an acquittal.

56a
By the statute’s text and application, it is unlikely
that the General Assembly intended it to place North
Carolina outside the longstanding double jeopardy
principles that govern mistrials. It is more likely that
the General Assembly intended to abolish a specific
procedure that threatened a defendant’s right to a
speedy trial when an indictment remained pending
against him and to prevent prosecutorial efforts to
dismiss a case midtrial in hope of procuring a more
favorable jury. Double jeopardy concerns that may
arise in a midtrial dismissal simply do not arise in the
pretrial stages. Even under a continuing jeopardy
theory of mistrials, a nonsubstantive voluntary
dismissal by the State does not preclude a retrial
following a mistrial. See Beckwith, 615 So. 2d at 1148.
A prosecutor can dismiss an indictment following a
mistrial under N.C.G.S. § 15A-931, in keeping with
defendant’s constitutional right to a speedy trial,
without compromising the State’s undeniable right to
retry a mistried case should new evidence surface.
It is indisputable that the State can enter a
pretrial section 15A-931 dismissal and later re-indict.
The majority places the State in the impossible
position of choosing to proceed to a new trial with
what one jury deemed insufficient evidence or lose
any opportunity to hold the defendant accountable for
the crime. Instead of rushing to a retrial, the ends of
justice may be best served by waiting. Over time, as
with this case, new witnesses may come forward or
improvements may be made in forensic evidence
testing. The new evidence might exonerate the
defendant or implicate him. A pretrial dismissal,
whether during the initial stage or during the pretrial
stage after mistrial, can serve the ends of justice.

57a
Thereafter, as with this defendant and with
Beckwith, armed with new evidence the State can
retry the defendant even years later.
The majority’s reliance on the State’s election rule,
as described in State v. Jones, underscores the
majority’s mistaken view of the procedural posture of
this case. 317 N.C. 487, 346 S.E.2d 657 (1986). In that
case the trial proceeded on a charge of second-degree
rape; however, at the close of evidence, the State
proposed a jury instruction on first-degree rape, and
the trial court gave that instruction. Id. at 491, 346
S.E.2d at 659–60. The jury ultimately convicted the
defendant on first-degree rape. Id. In reversing the
first-degree rape conviction, this Court “h[e]ld that
the State made a binding election,” after the jury was
empaneled, “not to pursue a verdict of guilty of firstdegree rape, thereby effectively assenting to an
acquittal of the maximum offense arguably charged
by the indictment.” Id. at 493, 346 S.E.2d at 660. The
majority says the State cannot adequately explain
why
a prosecutor’s unilateral, post-attachment
decision to terminate the entire prosecution
should be less binding on the State than its
post-attachment decision to pursue a lesser
charge. By making the unilateral choice to
enter a final dismissal of defendant’s murder
charge after jeopardy had attached, the State
made a binding decision not to retry the case.
Clearly, the majority confuses the trial stages at
which the actions were taken; the charge election

58a
occurred during trial whereas the post-mistrial
dismissal here was taken during the pretrial stage.
VI. Conclusion
Does a mistrial result in a new proceeding with a
pretrial period? The clear language from this Court
says that, following a mistrial, “the jury has been
discharged . . . [and] in legal contemplation there has
been no trial.” Tyson, 138 N.C. at 629, 50 S.E. at 456.
Likewise, the Supreme Court of the United States
says the proceeding begins anew after a mistrial. See
Scott, 437 U.S. at 92, 98 S. Ct. at 2194, 57 L. Ed. 2d
at 75. Thus, the dismissal here was a pretrial
dismissal, which is not an acquittal, and the State is
not barred from proceeding with a new indictment
and
trial.
The
majority’s
hyper-technical
misapplication of the “continuing jeopardy” theory is
not supported by applicable law and results in a
convicted murderer being freed. I respectfully dissent.
Justice ERVIN joins in this dissenting opinion.

59a

IN THE COURT OF APPEALS OF NORTH
CAROLINA
No. COA17-1095
Filed: 15 May 2018
Wake County, No. 15 CRS 213392
STATE OF NORTH CAROLINA
v.
JAMES HAROLD COURTNEY, III
Appeal by defendant from judgment entered 9
November 2016 by Judge Donald W. Stephens in
Wake County Superior Court. Heard in the Court of
Appeals 18 April 2018.
Attorney General Joshua H. Stein, by Special Deputy
Attorney General Jess D. Mekeel, for the State.
Appellate Defender Glenn Gerding, by Assistant
Appellate Defender Amanda S. Zimmer, for
defendant.
ELMORE, Judge.
In 2009, the State charged James Harold
Courtney, III (defendant) with first-degree murder
for the shooting death of James Deberry. At trial the
jury hung, and the trial court declared a mistrial on
the ground of jury deadlock. Four months later, the
prosecutor filed a N.C. Gen. Stat. § 15A–931

60a
voluntary dismissal of the murder charge with the
trial court, acknowledging on the form that its
dismissal was being entered after defendant had
already faced jeopardy for the charge and explaining
the following reason for its dismissal: “Hung jury,
State has elected not to re-try case.”
In 2015, however, after acquiring new evidence it
believed strengthened its case, the State recharged
defendant with first-degree murder for Deberry’s
homicide. Before his second trial, defendant moved to
dismiss the new murder indictment, claiming a
double jeopardy bar, which the trial court summarily
denied. The second jury found defendant guilty of
second-degree murder, and the trial court entered a
judgment sentencing him to approximately eighteen
to twenty-two years in prison.
On appeal, defendant concedes that the State was
permitted to retry him on the mistried murder
charge without violating his double jeopardy rights
because the hung-jury mistrial did not terminate the
initial jeopardy that attached when the first jury was
empaneled and sworn. He argues, however, that the
prosecutor’s post-mistrial voluntary dismissal of the
mistried charge terminated that initial continuing
jeopardy and, therefore, the State was barred from
reprosecuting him four years later for the same
offense. After careful consideration, we agree.
The Double Jeopardy Clause bars successive
prosecutions for the same offense after acquittal.
This protection “serves a constitutional policy of
finality for the defendant’s benefit[,]” Brown v. Ohio,
432 U.S. 161, 165, 97 S.Ct. 2221, 2225, 53 L.Ed. 2d

61a
187 (1977) (citation and quotation marks omitted),
and “guarantees that the State shall not be permitted
to make repeated attempts to convict the accused,
thereby subjecting him to embarrassment, expense
and ordeal and compelling him to live in a continuing
state of anxiety and insecurity, as well as enhancing
the possibility that even though innocent he may be
found guilty.” Blueford v. Arkansas, 566 U.S. 599,
605, 132 S.Ct. 2044, 2050, 182 L.Ed. 2d 937 (2012)
(citation and quotation marks omitted).
In North Carolina, a prosecutor may take “a
simple and final dismissal which terminates the
criminal proceedings under that indictment” at any
time. State v. Lamb, 321 N.C. 633, 641, 365 S.E.2d
600, 604 (1988) (citing N.C. Gen. Stat. § 15A–931).
While “[s]ection 15A–931 does not bar the bringing of
the same charges upon a new indictment,” id. (citing
N.C. Gen. Stat. § 15A–931 official cmt.), in this case
defendant’s constitutional right to be free from
double jeopardy did, see N.C. Gen. Stat. § 15A–931
official cmt. (opining that reprosecution would be
barred “if jeopardy had attached when the . . .
charge[] w[as] dismissed”).
We hold that when a prosecutor takes a section
15A–931 voluntary dismissal of a criminal charge
after jeopardy had attached to it, such a postjeopardy dismissal is accorded the same
constitutional finality and conclusiveness as an
acquittal for double jeopardy purposes. Further,
while the State has the undisputed right to retry a
hung charge, we hold that a prosecutor’s election
instead to dismiss that charge is binding on the State
and tantamount to an acquittal.

62a
We thus hold that here, by virtue of the
prosecutor’s post-jeopardy dismissal of the murder
charge, regardless of whether it was entered after a
valid hung-jury mistrial but before a permissible
second trial, the State was barred under double
jeopardy principles from retrying defendant four
years later for the same charge. Accordingly, we
vacate the judgment entered against defendant in 15
CRS 213392.
I. Background
On Halloween 2009, James Deberry was fatally
shot outside his apartment in Raleigh. The State’s
evidence tended to show that when responding
officers arrived, Deberry was still conscious and told
a detective that “a friend upstairs” had shot him.
Monica Bustamante, Deberry’s fiancé, was with him
and explained to the detective that “what he meant
was Jar, a friend that lived upstairs, or one of Jar’s
friends.” Police determined that “Jar” was David
Moses. The State’s evidence also indicated that
Moses and defendant had grown up together in New
York; that defendant met Deberry at Moses’
apartment; that Deberry sold a few pounds of lowgrade marijuana to defendant, and likely others, for
lower-level distribution; and that Deberry’s homicide
may have been drug-related.
The State charged defendant and Moses with
first-degree murder. But in return for agreeing to
testify at defendant’s trial, the State dropped the
charge against Moses and granted him immunity.
After the jury hung at defendant’s first trial, the trial
court declared a mistrial, and defendant was

63a
released on bail.
On 16 December 2010 and 10 February 2011, the
trial court issued “homicide status hearing” (original
in all caps) orders containing handwritten notes from
the judge indicating that the matter was set to be
reviewed at a later status hearing to determine
whether the State was going to retry the case. On 14
April 2011, the prosecutor filed a “Dismissal/Notice
of Reinstatement” with the trial court, indicating
that it was voluntarily dismissing the murder
charge. The form, Form AOC–CR–307, is separated
into three sections: (1) “Dismissal,” (2) “Dismissal
with leave,” and (3) “Reinstatement.” The prosecutor
filled in the “Dismissal” section, checking the
following boxes: (1) “The undersigned prosecutor
enters a dismissal to the above charge(s) and assigns
the following reasons:” and (2) “4. Other: (specify ).”
Next to box 4, the prosecutor wrote: “hung jury, State
has elected not to re-try case.” Under box 4 the form
contains a typewritten sentence concerning whether
a jury had been impaneled and whether evidence had
been presented, with instructions to edit the sentence
to reflect whether the voluntary dismissal was being
entered before or after jeopardy had attached to the
charge. With the handwritten edits, that sentence
reads as follows (omissions are stricken; additions
are underlined): “A jury has not been impaneled nor
and has [sic] evidence been introduced.”
In 2013 and 2014, the State acquired new
evidence putting Ivan McFarland, a friend of both
defendant and Moses from New York, at the scene of
Deberry’s shooting, and obtained cellphone records
indicating that five calls were made between

64a
defendant’s and McFarland’s cellphones during the
day of the shooting. In 2015, the State charged
McFarland and recharged defendant with Deberry’s
murder. 1 On 6 July 2015, a grand jury reindicted
defendant for first-degree murder.
Before his second trial, defendant moved to
dismiss the 2015 murder indictment on double
jeopardy grounds. Defendant conceded that the State
was permitted to retry him for Deberry’s homicide
following the December 2010 hung-jury mistrial. But
he argued that since the prosecutor four months later
in April 2011 instead elected under N.C. Gen. Stat. §
15A–931 to voluntarily dismiss the 2009 murder
indictment, after he had already faced jeopardy for
that charge at the first trial, the Double Jeopardy
Clause barred the State from retrying him for the
same offense. The trial court summarily denied the
motion.
Additionally, the following events occurred which
we briefly address only to provide context for
defendant’s other non-dispositive alleged errors.
Before his second trial, defendant also moved to
dismiss the 2015 murder indictment on speedy trial
grounds, which the trial court denied; and he
objected to not having been formally arraigned at
least a week before he was tried and requested a
continuance, which the trial court denied,
immediately arraigned him, and began trial the same
A pretrial hearing transcript reveals that another judge
had previously denied the State’s motion to join McFarland’s
and defendant’s murder trials, and that the State intended to
try McFarland after it tried defendant. The record is silent as
to the outcome of the murder charge against McFarland.
1

65a
day. At trial, the trial court admitted cellphone
record evidence under Rule 802(6)’s business-records
exception to the rule against hearsay, over
defendant’s objection that the records were not
properly authenticated under Rule 902.
After the State rested its case, defendant
presented no evidence. The jury convicted defendant
of second-degree murder, and the trial court entered
a judgment sentencing him to 220 to 273 months in
prison. Defendant appeals.
II. Alleged Errors
On appeal, defendant asserts the trial court erred
by denying his motions to dismiss the second murder
charge on both double jeopardy and speedy trial
grounds. First, he argues his double jeopardy
dismissal motion was improperly denied because the
prosecutor’s post-mistrial section 15A–931 voluntary
dismissal of the murder charge terminated its
jeopardy that attached at the first trial and
continued after the hung-jury mistrial and, thus, the
State was barred under the Double Jeopardy Clause
from retrying him for Deberry’s murder. Second, and
alternatively, defendant argues that if the voluntary
dismissal did not terminate the continuing original
jeopardy that attached at the first trial, his speedy
trial rights were violated by the State’s seven-year
delay from his first arrest to the second trial; or,
defendant argues, the case should be remanded for a
new speedy trial hearing, because the trial court
failed to account for the four years between the
dismissal entry and his reindictment when the court
balanced Barker’s length-of-delay factor in its speedy

66a
trial analysis.
Third, defendant argues the trial court erred by
admitting the phone records into evidence under
Rules 803(6)’s public-records hearsay exception over
his Rule 902(a)(2) authentication objection. And
fourth, he asserts the trial court violated his
statutory right under N.C. Gen. Stat. § 15A–943(b)
not to be tried within seven days of his arraignment
because he was formally arraigned and tried the
same day.
Because we conclude that defendant’s first
argument is dispositive and warrants vacating the
judgment entered against him, we analyze only the
double jeopardy issue presented and decline to
address his remaining arguments.
III. Double Jeopardy
Defendant asserts his double jeopardy rights were
violated when he was reprosecuted for first-degree
murder. He argues the prosecutor’s voluntary
dismissal of the 2009 murder charge terminated the
jeopardy that attached at the first trial and
continued following the hung-jury mistrial. Thus,
defendant contends, the trial court improperly
denied his pretrial motion to dismiss the 2015
murder charge before his second trial, and he
unconstitutionally faced jeopardy twice for the same
offense.
A. Issue Preservation
As a threshold matter, the State asserts that

67a
defendant failed to preserve his double jeopardy
claim because he failed to object to the hung-jury
mistrial. The State’s preservation argument is
meritless.
The State cites to State v. Lachat, 317 N.C. 73,
343 S.E.2d 872 (1986), for support. In Lachat, our
Supreme Court interpreted its decision in State v.
Odom, 316 N.C. 306, 341 S.E.2d 332 (1986), as
holding that, in “a noncapital case, . . . a defendant is
not entitled by reason of former jeopardy to dismissal
of the charge against him, where he failed to object
to the trial court’s termination of his first trial by a
declaration of mistrial.” Id. at 85, 343 S.E.2d at 878
(citing Odom, 316 N.C. at 309, 341 S.E.2d at 334).
The Lachat Court, however, after declining to extend
Odom ’s objection requirement to capital cases,
clarified that its decision in Odom was limited to
situations where a defendant is given notice and
opportunity to object before a mistrial is declared but
fails to do so. Thus, the Lachat Court explained, it
was declining to apply Odom ’s objection requirement
in part because “both declarations of mistrial by the
trial court were entered on the trial court’s own
motion and without prior notice or warning to the
defendant.” Id. at 86, 343 S.E.2d at 879. The Lachat
Court determined that “requir[ing] [the defendant] to
go through the formality of objecting after a mistrial
had already been declared or lose her protection
against double jeopardy would be a triumph of form
over substance[,]” id. at 86, 343 S.E.2d at 879,
“particularly [where] the defendant properly raised
the issue of former jeopardy before the
commencement of the second trial by filing her
written motion to dismiss the charge against her,” id.

68a
at 87, 343 S.E.2d at 879. Indeed, the Lachat Court
reasoned, “it was the trial court’s denial of that
motion which preserved this issue for appeal.” Id. at
87, 343 S.E.2d at 879. This authority, however, is
simply inapplicable here.
The former jeopardy defenses raised by both
defendants in Odom and Lachat before their second
trials were grounded in their assertion that the prior
mistrial was improperly declared, implicating their
double jeopardy right to have their guilt or innocence
determined by the first jury. Here, defendant neither
disputed the validity of the hung-jury mistrial nor
used it to support his former jeopardy defense;
rather, his double jeopardy claim was grounded in his
assertion that the State’s voluntary dismissal of the
murder charge terminated the jeopardy that
attached at the first trial. Additionally, the
constitutional protection at issue here is not
defendant’s right to have his guilt or innocence
decided by a particular tribunal, but his right to
avoid successive prosecutions for the same offense.
Further, defendant here, like the defendant in
Lachat, properly raised his former jeopardy defense
before the second trial by filing a written motion to
dismiss the murder charge on double jeopardy
grounds, and it was the trial court’s denial of that
motion that preserved this issue for appeal.
Accordingly, despite defendant’s failure to object to
the hung-jury mistrial, his former jeopardy
argument is preserved.
B. Discussion
As we review alleged double jeopardy violations

69a
de novo, see, e.g., State v. Schalow, ––– N.C. App. ––
––, ––––, 795 S.E.2d 567, 571 (2016) (citation
omitted), disc. rev. allowed, 369 N.C. 521, 796 S.E.2d
791 (2017), and disc. rev. improvidently allowed, 370
N.C. 525, 809 S.E.2d 579 (2018), it follows that we
review de novo a trial court’s denial of a motion to
dismiss an indictment on double jeopardy grounds.
The Double Jeopardy Clause of the Fifth
Amendment provides that “[n]o person shall . . . be
subject for the same offence to be twice put in
jeopardy of life or limb[.]” U.S. Const. amend. V. The
Clause “ ‘guarantees that the State shall not be
permitted to make repeated attempts to convict the
accused, thereby subjecting him to embarrassment,
expense and ordeal and compelling him to live in a
continuing state of anxiety and insecurity, as well as
enhancing the possibility that even though innocent
he may be found guilty.’ ” Blueford v. Arkansas, 566
U.S. 599, 605, 132 S.Ct. 2044, 2050, 182 L.Ed. 2d 937
(2012) (quoting United States v. Martin Linen Supply
Co., 430 U.S. 564, 569, 97 S.Ct. 1349, 1353, 51 L.Ed.
2d 642 (1977)).
Under the Double Jeopardy Clause, “once a
defendant is placed in jeopardy for an offense, and
jeopardy terminates with respect to that offense, the
defendant may [not] be tried . . . a second time for the
same offense.” Sattazahn v. Pennsylvania, 537 U.S.
101, 106, 123 S.Ct. 732, 736–37, 154 L.Ed. 2d 588
(2003) (citing North Carolina v. Pearce, 395 U.S. 711,
717, 89 S.Ct. 2072, 23 L.Ed. 2d 656 (1969)). “Where
successive prosecutions are at stake, the guarantee
serves ‘a constitutional policy of finality for the
defendant’s benefit.’ ” Brown v. Ohio, 432 U.S. 161,

70a
165, 97 S.Ct. 2221, 2225, 53 L.Ed. 2d 187 (1977)
(quoting United States v. Jorn, 400 U.S. 470, 479, 91
S.Ct. 547, 554, 27 L.Ed. 2d 543 (1971) (plurality
opinion)). “The public interest in the finality of
criminal judgments is so strong that an acquitted
defendant may not be retried even though ‘the
acquittal was based upon an egregiously erroneous
foundation.’ ” Arizona v. Washington, 434 U.S. 497,
503, 98 S.Ct. 824, 829, 54 L.Ed. 2d 717 (1978)
(quoting Fong Foo v. United States, 369 U.S. 141,
143, 82 S.Ct. 671, 672, 7 L.Ed. 2d 629 (1962)). The
federal protection against successive prosecutions for
the same offense is also guaranteed by the Law of the
Land Clause of the North Carolina Constitution. See
State v. Brunson, 327 N.C. 244, 247, 393 S.E.2d 860,
863 (1990) (citing N.C. Const. art. I, § 19; other
citations omitted); see also State v. Shuler, 293 N.C.
34, 42, 235 S.E.2d 226, 231 (1977) (“It is a
fundamental principle of the common law,
guaranteed by our Federal and State Constitutions,
that no person may be twice put in jeopardy of life or
limb for the same offense.” (citations omitted)).
Defendant concedes that the hung-jury mistrial
was a “nonevent” that did not terminate the initial
jeopardy attached to the murder charge when the
first jury was empaneled and sworn, and thus the
State was permitted to retry him on that mistried
charge without unlawfully twice subjecting him to
jeopardy. He argues the State’s post-mistrial section
15A–931 voluntary dismissal of that mistried charge
was a jeopardy-terminating event functionally
equivalent to an acquittal of that charge, thereby
barring the second trial.

71a
In its brief, the State does not address the
jeopardy-terminating effect on the murder charge of
the prosecutor’s voluntary dismissal; rather, it
argues that where, as here, a proper hung-jury
mistrial was declared, “ ‘in legal contemplation there
has been no trial.’ ” Lachat, 317 N.C. at 82, 343
S.E.2d at 877 (quoting State v. Tyson, 138 N.C. 627,
629, 50 S.E. 456 (1905)). According to the State,
because the “hung jury mistrial rendered the original
trial ‘a nullity’ such that there was ‘no trial’ at all,”
the “clock was effectively rewound to before the
impaneling of a jury and corresponding attachment
of jeopardy.” Thus, the State continues, “jeopardy
cannot be terminated when it never attached in the
first place.”
“There are few if any rules of criminal procedure
clearer than the rule that ‘jeopardy attaches when
the jury is empaneled and sworn.’ ” Martinez v.
Illinois, ––– U.S. ––––, 134 S.Ct. 2070, 2074, 188
L.Ed. 2d 1112 (2014) (citations omitted); see also
Crist v. Bretz, 437 U.S. 28, 35 n.10, 98 S.Ct. 2156,
2160 n.10, 57 L.Ed. 2d 24 (1978) (“[J]eopardy does
attach even in a trial that does not culminate in a
jury verdict[.] . . .” (citation omitted)). Here, jeopardy
attached when the first jury was empaneled and
sworn, and despite the State’s theoretical argument,
there can be no doubt that defendant faced the direct
peril of being convicted and punished for first-degree
murder at that trial. Jeopardy does not “unattach”
when the jury hangs. See Yeager v. United States, 557
U.S. 110, 118, 129 S.Ct. 2360, 2366, 174 L.Ed. 2d 78
(2009) (“[A] jury’s inability to reach a decision is the
kind of ‘manifest necessity’ that permits the
declaration of a mistrial and the continuation of the

72a
initial jeopardy that commenced when the jury was
first impaneled.” (emphasis added) (citations
omitted)).
“ ‘[T]he conclusion that jeopardy has attached,’
however, ‘begins, rather than ends, the inquiry as to
whether the Double Jeopardy Clause bars retrial.’ ”
Martinez, 134 S.Ct. at 2075 (quoting Serfass v.
United States, 420 U.S. 377, 390, 95 S.Ct. 1055, 1064,
43 L.Ed. 2d 265 (1975)). “The remaining question is
whether the jeopardy ended in such a manner that
the defendant may not be retried.” Id. (citation
omitted).
The Double Jeopardy Clause does not bar retrial
of a hung charge because a hung-jury mistrial is “not
an event that terminates the original jeopardy . . . .”
Richardson v. United States, 468 U.S. 317, 326, 104
S.Ct. 3081, 3086, 82 L.Ed. 2d 242 (1984). But the
Clause bars retrial after a jeopardy-terminating
event, such as (1) a jury acquittal, see, e.g., Evans v.
Michigan, 568 U.S. 313, 328, 133 S.Ct. 1069, 1080,
185 L.Ed. 2d 124 (2013) (“There is no question that a
jury verdict of acquittal precludes retrial . . . .”
(citation omitted)); (2) a judicial acquittal, see id. at
319, 133 S.Ct. at 1075 (explaining that a judicial “
‘acquittal’ includes ‘a ruling by the court that the
evidence is insufficient to convict,’ a ‘factual finding
that necessarily establishes the criminal defendant’s
lack of criminal culpability,’ and any other ‘ruling
which relate[s] to the ultimate question of guilt or
innocence’ ” (citation and brackets omitted)); or (3)
certain non-defense-requested terminations of
criminal proceedings, such as non-procedural
dismissals or improperly declared mistrials, that for

73a
double jeopardy purposes are functionally equivalent
to acquittals. See, e.g., Lee v. United States, 432 U.S.
23, 30, 97 S.Ct. 2141, 2145, 53 L.Ed. 2d 80 (1977) (“A
mistrial ruling invariably rests on grounds
consistent with reprosecution, while a dismissal may
or may not do so.” (internal citation omitted)); see also
United States v. Scott, 437 U.S. 82, 99–100, 98 S.Ct.
2187, 2198, 57 L.Ed. 2d 65 (1978) (holding that there
is no jeopardy bar to a second trial where the trial
court grants a defendant-requested motion to dismiss
a charge on a basis unrelated to factual guilt or
innocence on the ground that the Double Jeopardy
Clause “does not relieve a defendant from the
consequences of his voluntary choice”).
In determining whether a judicial ruling, whether
labeled a dismissal or mistrial, amounts to an
acquittal barring retrial, “[t]he critical question is
whether the order contemplates an end to all
prosecution of the defendant for the offense charged.”
Lee, 432 U.S. at 30, 97 S.Ct. at 2145; see also Evans,
568 U.S. at 319, 133 S.Ct. at 1075 (explaining that
“substantive rulings” of true judicial acquittals
“stand apart from procedural rulings that may also
terminate a case midtrial,” such as “rulings on
questions that ‘are unrelated to factual guilt or
innocence,’ ” including, for instance, “some problem
like an error with the indictment” (citation omitted)).
At issue here is whether the non-defense-requested
section 15A–931 voluntary dismissal of the murder
charge
was
a
jeopardy-terminating
event
tantamount to an acquittal. We conclude that it was.

74a
1. Post-jeopardy Section 15A–931 Voluntary
Dismissal Amounts to an Acquittal
Under N.C. Gen. Stat. § 15A–931, entitled
“Voluntary dismissal of criminal charges by the
State”:
(a) . . . [T]he prosecutor may dismiss any
charges stated in a criminal pleading
including those deferred for prosecution by
entering an oral dismissal in open court
before or during the trial, or by filing a written
dismissal with the clerk at any time. The clerk
must record the dismissal entered by the
prosecutor and note in the case file whether a
jury has been impaneled or evidence has been
introduced.
Id. § 15A–931(a) (2017) (emphasis added). In the
context of addressing a speedy trial claim, our
Supreme Court has interpreted a section 15A–931
dismissal as “a simple and final dismissal which
terminates the criminal proceedings under that
indictment[,]” State v. Lamb, 321 N.C. 633, 641, 365
S.E.2d 600, 604 (1988) (interpreting N.C. Gen. Stat.
§ 15A–931), and explained that “[s]ection 15A–931
does not bar the bringing of the same charges upon a
new indictment.” Id. (citing N.C. Gen. Stat. § 15A–
931 official cmt.). But the plain language of section
15A–931 explicitly requires that voluntary
dismissals acknowledge whether a defendant has
faced jeopardy for the charge, indicating that the
legislature contemplated jeopardy attachment to a
dismissed charge to be significant, and that the
double jeopardy consequences of pre- and postjeopardy dismissals would differ. See State v.

75a
Williams, 286 N.C. 422, 431, 212 S.E.2d 113, 119
(1975) (“[A] statute must be construed, if possible, so
as to give effect to every part of it, it being presumed
that the Legislature did not intend any of its
provisions to be surplusage.” (citations omitted)).
Thus, in the jeopardy context, we have held that
a defendant is not twice unlawfully subjected to
jeopardy if the State recharges him or her with the
same charge a prosecutor had previously dismissed
under section 15A–931 before a jury was empaneled
and sworn, because a defendant must face jeopardy
before he can suffer double jeopardy. See, e.g., State
v. Jacobs, 128 N.C. App. 559, 569, 495 S.E.2d 757,
764 (1998) (rejecting a double jeopardy claim because
“[t]he former prosecution was voluntarily dismissed
by the State before a jury had been empaneled and
before jeopardy had attached” (emphasis added)
(citation omitted)); State v. Strickland, 98 N.C. App.
693, 694–95, 391 S.E.2d 829, 830–31 (1990) (same);
State v. Hice, 34 N.C. App. 468, 471–72, 238 S.E.2d
619, 621–22 (1977) (same); see also State v. Muncy,
79 N.C. App. 356, 360, 339 S.E.2d 466, 469 (1986) (“A
voluntary dismissal taken by the State, pursuant to
G.S. 15A–931, does not preclude the State from
instituting a subsequent prosecution for the same
offense if jeopardy has not attached.” (emphasis
added) (citation omitted)).
But where, as here, the State voluntarily
dismisses a criminal charge after a jury had been
empaneled and sworn, we interpret section 15A–931
as according that dismissal the same constitutional
finality and conclusiveness as an acquittal for double
jeopardy purposes. We hold that if a prosecutor

76a
enters a post-jeopardy section 15A–931 dismissal of
a charge, a defendant cannot again face jeopardy for
that same charge. Accordingly, we conclude that
defendant here was unlawfully placed twice in
jeopardy when the prosecutor voluntarily dismissed
the murder charge after jeopardy had attached to it,
and the State years later retried him for that same
offense. Cf. Midgett v. McClelland, 547 F.2d 1194,
1196 (4th Cir. 1977) (“Putting [the defendant] to trial
on the assault charge after he had been put to trial
on that charge once, the prosecution dropping the
charge only after the testimony was in, was clearly a
violation of [his] right not to be put in jeopardy
twice.”).
Our conclusion—that a prosecutor’s post-jeopardy
dismissal of a criminal charge is functionally
equivalent to an acquittal barring the State under
double jeopardy principles from later reprosecuting
that same charge—is buttressed by the official
commentary to section 15A–931. “Although the
official commentary was not drafted by the General
Assembly,” and it is thus not binding but merely
persuasive, “its inclusion in The Criminal Procedure
Act is some indication that the legislature expected
and intended for the courts to turn to it for guidance
when construing the Act.” State v. Williams, 315 N.C.
310, 327, 338 S.E.2d 75, 85 (1986) (finding “the logic
of the official commentary [to N.C. Gen. Stat. § 15A–
1235] to be persuasive” and adopting the opinion of
the Criminal Code Commission in reaching its
holding). Section 15A–931’s official commentary
provides:
[T]he Commission here provide for a simple

77a
and final dismissal by the solicitor. No
approval by the court is required, on the basis
that it is the responsibility of the solicitor, as
an elected official, to determine how to
proceed with regard to pending charges. This
section does not itself bar the bringing of new
charges. That would be prevented if there
were a statute of limitations which had run,
or if jeopardy had attached when the first
charges were dismissed.
N.C. Gen. Stat. § 15A–931 official cmt. (emphasis
added). The Criminal Code Commission clearly
contemplated that the State would be barred from
reprosecuting a section 15A–931 voluntarily
dismissed charge “if jeopardy had attached when
the . . . charge[ ] w[as] dismissed,” and we find that
logic persuasive.
Based on our understanding that the Double
Jeopardy Clause’s protection against reprosecution
of an acquitted charge “serves a constitutional policy
of finality for the defendant’s benefit[,]” Brown, 432
U.S. at 165, 97 S.Ct. at 2225 (citation and quotation
marks omitted), and “guarantees that the State shall
not be permitted to make repeated attempts to
convict the accused, thereby subjecting him to
embarrassment, expense and ordeal and compelling
him to live in a continuing state of anxiety and
insecurity, as well as enhancing the possibility that
even though innocent he may be found guilty[,]”
Blueford, 566 U.S. at 605, 132 S.Ct. at 2050 (citation
and quotation marks omitted), and based on our
interpretation of the contemplated finality of a postjeopardy section 15A–931 dismissal, we explicitly
hold what we have concluded in Muncy, Strickland,

78a
Hice, and Jacobs: if a prosecutor voluntarily
dismisses a criminal charge after jeopardy has
attached, it is functionally equivalent to an acquittal
for double jeopardy purposes, and a defendant cannot
be reprosecuted for that same offense.
2. Section 15A–931 Dismissal of a Hung Charge
In this case, however, it is the timing of the
prosecutor’s voluntary dismissal—after a hung-jury
mistrial that afforded the State the right to a second
trial without violating defendant’s double jeopardy
rights—which both parties concede presents an issue
of first impression in our state. To this end, aside
from relying on the basic double jeopardy principles
above to compel our further holding that the timing
of a post-jeopardy voluntary dismissal should not
undermine its constitutional finality, we find further
guidance from our Supreme Court’s explanation and
application of the “State’s election” rule. The rule
instructs that a prosecutor’s pre-jeopardy silence of
an intent to prosecute a potential charge in an
indictment
constitutes
a
“binding
election . . . tantamount to an acquittal” of that
potential charge, barring the State from later
attempting to prosecute that potential charge for the
first time after jeopardy had already attached to the
indictment. State v. Jones, 317 N.C. 487, 494, 346
S.E.2d 657, 661 (1986).
In Jones, the indictment charging the defendant
with rape arguably supported counts of both firstand second-degree rape, but the State only
announced its intent to pursue a conviction for
second-degree rape before the jury was empaneled

79a
and sworn. Id. After jeopardy had attached to the
indictment, however, the State successfully
prosecuted for first-degree rape. Id. at 491–92, 346
S.E.2d at 659–60.
On appeal, our Supreme Court vacated the
judgment entered on the first-degree rape conviction
and remanded for entry of a judgment on seconddegree rape. Id. at 501, 346 S.E.2d at 665. The Jones
Court reasoned that
by unequivocally arraigning the defendant on
second-degree rape and by failing thereafter
to give any notice whatsoever, prior to the jury
being impaneled and jeopardy attaching, of
an intent instead to pursue a conviction for
first-degree rape arguably supported by the
short-form indictment, the State made a
binding election not to pursue the greater
degree of the offense, and such election was
tantamount to an acquittal of first-degree
rape.
Id. at 494, 346 S.E.2d at 661; see also State v. Hickey,
317 N.C. 457, 466, 346 S.E.2d 646, 652–53 (1986)
(“[A]n announced election by the district attorney [to
seek conviction for only some charges in an
indictment] becomes binding on the State and
tantamount to acquittal of charges contained in the
indictment but not prosecuted at trial only when
jeopardy has attached as the result of a jury being
impaneled and sworn to try the defendant.” (first
emphasis added) (citations omitted)).
While Jones and Hickey applied the “State’s
election” rule in the context of its election not to seek

80a
conviction for some charges supported by an
indictment until after jeopardy attached, we find the
principle announced—that the event of jeopardy
attachment renders such a decision binding and
tantamount to an acquittal—applicable to the State’s
action here. In this case, jeopardy attached to the
murder charge when the first jury was empaneled
and sworn. The State had the right to retry
defendant for that charge following the hung-jury
mistrial. But after what the record indicates was at
least one homicide status hearing with the trial court
to determine whether the State was going to exercise
its right to retry the hung charge, the prosecutor
instead elected to file a section 15A–931 voluntary
dismissal of that charge, explicitly acknowledging in
its dismissal entry that a jury had been empaneled
and evidence had been introduced, and reasoning in
part that “State has elected not to re-try case.” The
record in this case leaves little doubt that both the
trial court and the prosecutor contemplated his
election to dismiss the hung charge, rather than
announce the State’s intent to retry it, amounted to
a decision conclusively ending the prosecution, as
would any reasonable defendant.
A logical extension of the State’s election rule
applied in Jones and Hickey buttresses our
conclusion here: Because the prosecutor, after
acknowledging that jeopardy had attached to the
murder charge, elected to dismiss the hung charge in
part because the “State has elected not to re-try
case,” rather than announce the State’s intent to
exercise its right to retry it, that decision was
“binding on the State and tantamount to acquittal” of
the murder charge. Hickey, 317 N.C. at 446, 346

81a
S.E.2d at 652. Cf. State v. Phillips, 127 N.C. App. 391,
392–94, 489 S.E.2d 890, 891–92 (1997) (arresting
judgment on a speeding conviction at superior court
“because the State took a voluntary dismissal at the
district court on the speeding charge” and, “[t]hus,
the superior court did not have jurisdiction over the
speeding offense” (citation omitted)); State v. Reeves,
218 N.C. App. 570, 574, 721 S.E.2d 317, 321 (2012)
(vacating judgment on a convicted charge at superior
court where the State previously voluntarily
dismissed that charge in district court).
We have already rejected the State’s main
argument in its appellate brief: In essence, that the
hung-jury mistrial “unattached” the jeopardy from
the first trial. But at oral argument the State
asserted that since its dismissal was entered after
the hung-jury mistrial but before the second trial, the
case was back in “pretrial” status, and thus its
dismissal was equivalent to a pre-jeopardy dismissal.
We disagree.
The State cited to United States v. Sanford, 429
U.S. 14, 97 S.Ct. 20, 50 L.Ed. 2d 17 (1976) (per
curiam), for support. In Sanford, the defendant’s first
trial ended in a hung-jury mistrial and, four months
later, the trial court granted the defendant’s motion
to dismiss the indictment before the second trial
began. Id. at 14, 97 S.Ct. at 20. The Sanford Court
concluded that, based on the timing of the
dismissal—“several months after the first trial had
ended in a mistrial, but before retrial . . . had
begun[,]”—the case was “governed by Serfass v.
United States, [420 U.S. 377, 95 S.Ct. 1055, 43 L.Ed.
2d 265 (1975) ], in which we held that a pretrial order

82a
of the District Court dismissing an indictment .
. . was appealable[.] . . . ” Id. at 16, 97 S.Ct. at 21. The
Court reasoned: “The dismissal in this case, like that
in Serfass, was prior to a trial that the Government
had a right to prosecute and that the defendant was
required to defend.” Id. at 16, 97 S.Ct. at 21–22.
Thus, the Sanford Court held, the Double Jeopardy
Clause did not bar the Government’s appeal from
that dismissal.
We recognize that the sequence of events are
similar—a charge was dismissed following a hungjury mistrial but before retrial began—but the
similarity ends there. The Sanford dismissal was
requested by the defendant, and the hung charge was
dismissed at a time when the Government intended
to retry it. Here, contrarily, the State entered a nondefense-requested dismissal, and the charge was
dismissed at a time when the dismissal entry itself
announced the State did not intend to retry the case,
effectively terminating any right the State had to
reprosecute the hung charge. Accordingly, the
Sanford Court’s conclusion that the parties there
were back in “pretrial” status for double jeopardy
purposes is simply inapplicable here.
IV. Conclusion
Defendant faced the direct peril of being convicted
and punished for murder at his first trial. “He was
forced to run the gauntlet once on that charge and
the jury refused to convict him.” Green v. United
States, 355 U.S. 184, 190, 78 S.Ct. 221, 225, 2 L.Ed.
2d 199 (1957). The initial jeopardy that attached to
the murder charge during the first trial remained

83a
intact following the hung-jury mistrial, but it
terminated when the prosecutor voluntarily
dismissed that charge four months later.
We hold that a post-jeopardy section 15A–931
voluntary dismissal is to be accorded the same
constitutional finality and conclusiveness as an
acquittal of that charge. Further, while the State had
the right to retry the hung charge without violating
defendant’s double jeopardy rights, in applying the
State’s election rule to the prosecutorial action in this
case, we hold that the prosecutor’s election instead to
voluntarily dismiss the charge, rather than announce
the State’s intent to retry it, was binding on the State
and tantamount to an acquittal. After defendant
faced jeopardy for the murder charge at his first trial,
and the prosecutor later dismissed that hung charge,
the Double Jeopardy Clause’s protection against
successive prosecutions for the same offense barred
the State from reprosecuting defendant for Deberry’s
murder four years later. The trial court thus erred by
denying defendant’s motion to dismiss the 2015
murder indictment on double jeopardy grounds.
Accordingly, we vacate the judgment entered against
defendant in 15 CRS 213392. In light of our
disposition, we decline to address defendant’s
remaining arguments.
VACATED.
Judges TYSON and ZACHARY concur.

84a
IN THE GENERAL COURT OF JUSTICE
SUPERIOR COURT DIVISION
COUNTY OF WAKE
15-CRS-213392
October 10, 2016
STATE OF NORTH CAROLINA
v.
JAMES HAROLD COURTNEY, III
Defendant.

MR. KNUDSEN: The other motion to dismiss is
basically a purely legal one and we can probably hear
that except for, with all due candor, this only became
apparent to me recently when I was looking at other
things and Boz only was notified of this on Friday, and
if he is not in a position to argue that, then I certainly
would not want to go forward with it.
THE COURT: Well, I understand. What is that
motion about?
MR. KNUDSEN: Judge, what happened is the
nature of the motion is of a nature of double jeopardy
and/or estoppel by virtue of the terms of the dismissal
statute which is 15a-931. This is a very unique case
because it’s the only one I have been able to find in
the appellate literature where the State took a
voluntary dismissal after impaneling a jury,

85a
presenting evidence, so indicated on the written
dismissal form that a jury had been impaneled and
witness and evidence had been presented, and that
the reason for the taking of the voluntary dismissal
was not for further investigations, but because the
State has elected not to retry the defendant.
If you look at 15a- 931, I mean, the normal rule is
the State is not precluded under many circumstances
from recharging an individual after taking a
voluntary dismissal, but if you look at that, one of the
things that that statute clearly requires is the file
contain the notation as to whether or not a jury was
impaneled and evidence presented which was the case
here.
It is the position of the defendant that having
elected and the exercise of prosecutorial discretion, to
take a final dismissal of this matter after it was tried,
that dismissal is final and the State is precluded from
reindicting the defendant and going forward.
The clear terms of the statute would indicate that
under those circumstances, reindicting this defendant
was not proper and to proceed to trial would not be
proper in the matter.
THE COURT: Well, I mean, I understand what the
statute says. It says -- 15a-931(a) simply says that the
prosecutor may dismiss any charges stated in the
criminal pleading including those deferred for
prosecution by either an oral dismissal in open court
before or during the trial or by filing a written
dismissal with the clerk at any time.

86a
The clerk must record the dismissal entered by the
prosecutor and note in the case file whether a jury has
been impaneled or evidence has been introduced. It
directs the clerk to do that so that it can be
determined whether or not jeopardy has attached in
such a way as it would preclude a retrial.
But, I take it there is an order in the case file
somewhere here that the Clerk had previously noted
that trial evidence had been taken, the jury did not
reach a verdict, and a mistrial was declared.
And then after that, the prosecutor filed a written
notice. I think that is what -- I don’t think there is any
basis for your motion to dismiss. So, the motion on
that grounds is denied.

